<html>
<title> - AN EMERGING DRUG THREAT IN CENTRAL FLORIDA: CLUB DRUGS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





         AN EMERGING DRUG THREAT IN CENTRAL FLORIDA: CLUB DRUGS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 1, 2000

                               __________

                           Serial No. 106-212

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                              ___________

                   U.S. GOVERNMENT PRINTING OFFICE
71-692                     WASHINGTON : 2001

_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001
                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California                 JANICE D. SCHAKOWSKY, Illinois
DAVID VITTER, Louisiana

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                   Charley Diaz, Congressional Fellow
                           Ryan McKee, Clerk
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 1, 2000.....................................     1
Statement of:
    McDonough, James R., director, Florida Drug Control Policy 
      Office, Executive Office of the Governor, State of Florida; 
      Patty Thompson, special agent, Florida Department of Law 
      Enforcement, Tampa; and Lieutenant Michael E. Miller, 
      Orange County Sheriff's Office.............................    10
    Varrone, John, Acting Deputy Commissioner for Investigations, 
      U.S. Customs Service; and William Fernandez, executive 
      director, Central Florida HIDTA............................    78
    Webster, Mario, Families Against Drugs; Debbie Alumbaugh, 
      private citizen; and Ernest D. Cantley, president and CEO, 
      Stewart-Marchman Center....................................    49
Letters, statements, etc., submitted for the record by:
    Alumbaugh, Debbie, private citizen, prepared statement of....    54
    Cantley, Ernest D., president and CEO, Stewart-Marchman 
      Center, prepared statement of..............................    58
    Fernandez, William, executive director, Central Florida 
      HIDTA, prepared statement of...............................    96
    McDonough, James R., director, Florida Drug Control Policy 
      Office, Executive Office of the Governor, State of Florida, 
      prepared statement of......................................    12
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, prepared statement of....................     4
    Miller, Lieutenant Michael E., Orange County Sheriff's 
      Office, prepared statement of..............................    35
    Varrone, John, Acting Deputy Commissioner for Investigations, 
      U.S. Customs Service, prepared statement of................    83
    Webster, Mario, Families Against Drugs, prepared statement of    51

 
         AN EMERGING DRUG THREAT IN CENTRAL FLORIDA: CLUB DRUGS

                              ----------                              


                         THURSDAY, JUNE 1, 2000

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                       Orlando, FL.
    The subcommittee met, pursuant to notice, at 10 a.m., at 
City Hall, Orlando, FL, Hon. John L. Mica (chairman of the 
committee) presiding.
    Present: Representatives Mica and Towns.
    Also present: Representative Brown.
    Staff present: Charley Diaz, congressional fellow; and Ryan 
McKee, clerk.
    Mr. Mica. I call the hearing of the U.S. House of 
Representatives Subcommittee on Criminal Justice, Drug Policy, 
and Human Resources to order. Pleased to be here in my local 
community, central Florida. Pleased to welcome my colleague, 
Mr. Towns, Ed Towns, a member of our subcommittee. We have 
invited some of the local representatives who are not on the 
committee to join us, and I believe Ms. Brown is on her way, 
but because we have three full panels today, I would like to 
proceed with the regular order of business before the 
subcommittee.
    The topic of today's hearing is ``An Emerging Drug Threat 
in Central Florida: Club Drugs.'' And we do have, as I said, 
three panels. The order of business will be as follows: I will 
open with my opening statement, I will yield to other Members 
as they arrive, or in order, proper order this morning. And 
then we will hear from our three witness panels.
    I have a lengthy statement that I have prepared and I would 
like to have made as part of the record. Mr. Towns, I move my 
entire statement be made part of the record. Without objection, 
so ordered. And I do have some opening statements that I wanted 
to make at this hearing this morning.
    As chairman of the Criminal Justice, Drug Policy, and Human 
Resources Subcommittee, I have the responsibility to help 
develop a coherent and effective national drug policy. As a 
Representative to Congress from this area, I also have an 
obligation to see that the threat of dangerous and illegal 
narcotics are kept from our communities, and especially from 
our children.
    In recent years, this area has been ravaged by natural 
disasters, including tornadoes, droughts, storms and fires. 
Even with the loss of life and property, we have fought back 
and we have recovered. We have joined together to fight those 
natural disasters. In the past few years, central Florida has 
also been ravaged by an epidemic of illegal narcotics. Heroin 
overdose deaths have, at times, exceeded homicides in our local 
community.
    Now we face an explosion of designer drugs, including 
Ecstasy and other club drugs, that pose an even more insidious 
threat to our children, to our parents in the local community 
and also to our law enforcement officials. These designer drugs 
are now flooding into our country and produced also 
domestically in huge quantities.
    The cover and lead story of this week's Time magazine 
showcases Ecstasy and also describes the national scope of the 
problem and threat that we face. It is ironic that the cover of 
this magazine today focuses on the subject of this hearing. 
This new scourge of drugs pose a new challenge to parents and 
law enforcement. This article and some of the information our 
subcommittee has received said that some 5 percent of those 12 
or older say they have used marijuana once a month; 1.8 percent 
say they have used cocaine. However 8 percent of high school 
seniors say they have used Ecstasy at least once, which is up 
from 5.8 percent in 1997.
    Nationwide, our customs officials, who we will hear from 
later, seized again in 1998 750,000 hits of Ecstasy. So far 
this fiscal year, more than 5.4 million hits have been seized. 
Again, a dramatic explosion in the quantity of designer and 
club drugs coming into this country.
    Ecstasy and other so-called club drugs have flooded rave, 
dance and D.J. clubs and also functions where our youth 
congregate. Unaware parents send their children to these events 
and these events boast security, no alcohol, music and fun. 
Unfortunately we will hear today that too often lives are 
destroyed and our youth, in fact, become victims of addiction.
    Two years ago, I was able to have central Florida 
designated under Federal statutes as a high-intensity drug 
traffic area. That is also referred to as a HIDTA. That 
designation has brought together initial Federal funding, 
Federal support and resources to help this area and its local 
and State officials deal with primarily the growing heroin 
trafficking problem we experience.
    Today, we face another challenge relating to illegal 
narcotics, the problem of club drugs and Ecstasy. It is my hope 
that this hearing can assist us in several ways. First of all, 
we need to examine the extent of the club drug and the Ecstasy 
problem. I noted, and the staff provided me with a copy of this 
year's National Drug Control's strategy, and we do have an 
awareness even cited in this strategy prepared by General 
McCaffrey, director of our Office of National Drug Control 
Policy. On page 23, he talks about MDMA, also known as Ecstasy. 
He said Ecstasy is often used in conjunction with other drugs 
and is extremely popular among some teenagers and young 
professionals. Furthermore, growing numbers of users, primarily 
in the Miami and Orlando areas, combine MDMA with heroin, a 
practice known as rolling. That is where we have seen the large 
number of deaths. There may be debates about the exact number 
of deaths, but one death is too many, as we will hear from 
parents and individuals who have been the victim of this 
scourge.
    But again, the purpose of this hearing is to examine the 
extent of the problem. Second purpose is to hear from local, 
State and Federal officials as to how they are dealing with 
this problem. The third purpose of this hearing is to listen to 
those involved in treatment and prevention, and work with them 
to develop better programs, also in the areas of education, 
prevention and public awareness. And also it is important today 
that we review the HIDTA that we established here, less than 2 
years ago now, see how that is working, see if we need to make 
changes in its operation, its function, its direction, now that 
we face this new threat.
    I will tell you something here, and again it is not written 
in my official submitted statements. I have faced some 
challenges in my life, but I do not think I have ever seen 
anything like this. Heading this subcommittee for the last year 
and a half has been the ultimate challenge. And I feel 
sometimes we are making two steps forward and one step back. 
But I think that if we all redouble our efforts here in our 
community, and nationally, that we can turn this around. Again, 
I remain committed to it.
    I am so pleased that I have been joined by a member of our 
subcommittee, someone who I have the highest regard and esteem 
for. When I went to Congress--and by way of introduction, he 
chaired a subcommittee of which I was a member. He came into 
our community, he helped us initially with some of the problems 
that we had here in our community, he provided a great example 
for me as to how to work in a bipartisan fashion in Congress, 
and I consider him not only a colleague but a friend, and 
someone I have learned a great deal from. So I have a 
tremendous amount of respect for the gentleman who has joined 
me, also joined our subcommittee. And I am pleased to yield at 
this time to Mr. Towns, Ed Towns, from New York.
    You are recognized, sir, and welcome.
    [The prepared statement of Hon. John L. Mica follows:]

    [GRAPHIC] [TIFF OMITTED] T1692.001
    
    [GRAPHIC] [TIFF OMITTED] T1692.002
    
    [GRAPHIC] [TIFF OMITTED] T1692.003
    
    [GRAPHIC] [TIFF OMITTED] T1692.004
    
    Mr. Towns. Thank you very much, Mr. Chairman, and let me 
begin by saying that the feeling is mutual, no question about 
it. It is a pleasure working with you. I am delighted to be 
joined this morning by my colleague Corrine Brown, also from 
the State of Florida.
    I will be brief, because I am eager to hear from these 
outstanding witnesses. I would like to commend you on your 
leadership on drug policy issues in the Congress, Mr. Chairman, 
and I look forward to working with you and this subcommittee as 
we inform and seek guidance from the American people on these 
important national issues that have such a profound effect on 
the lives of so many people.
    I know this may date me, but I am old enough to remember 
when people said that marijuana was fun, cocaine was harmless 
and speed was not addictive. Now, I am old enough to know that 
all of that was a bunch of lies. And yet there are a lot of 
people who are not here today because they believed those lies. 
Today, we are hearing some of the same lies about club drugs. 
You almost want to say, here we go again.
    I want to take a moment to tell the truth about club drugs. 
Recent studies by the National Institute of Drug Abuse have 
found that these drugs may permanently impair your ability to 
concentrate and remember. In the short-term, these drugs can 
cause confusion, depression, anxiety and paranoia for weeks 
after using them. Several deaths have been linked to them, as 
well.
    Mr. Chairman, I do not want to scare anyone, I know that 
fear is seldom an effective educational tool. I am here to 
caution people, and especially young people, because I do not 
want the dawning potential and determination of Generation X to 
end up in the nightmare of despair of general Ecstasy.
    The good news is that club drugs use is low. According to 
the Department of HHS, only 3 million people have ever reported 
using these drugs. Mr. Chairman, I applaud you for taking the 
appropriate steps to avoid further spreading of the club drug 
crisis.
    In December 1999, the National Institute on Drug Abuse 
announced that it will raise its funding for research about 
club drugs and what to do about them by about 40 percent, 
bringing the total commitment to $54 million. That is not 
enough. Additionally, NIDA and four national organizations have 
largely multi-media public education strategy to alert teens, 
young adults, parents, educators and others about the dangers 
of club drugs. And that is not enough.
    So with great anticipation, I look forward to hearing from 
these various presenters today, because I know that we still 
have some work to do on this issue. Again, I want to thank you 
for holding this hearing, Mr. Chairman, and I also want to 
thank you for your leadership. And I look forward to working 
with you as we seek solutions to this problem that appears to 
be spreading every day.
    Thank you, and I yield back.
    Mr. Mica. Thank you again, Mr. Towns.
    I am pleased at this time to yield to my colleague from 
central Florida, and I must say that I commend her for being 
with us today. She represents a very vast area from 
Jacksonville to the city of Orlando. She has been a stalwart in 
assisting me on a number of issues, including transportation, 
which sometimes also is a great challenge for us. But she came 
here today, got up early this morning from Jacksonville and 
came down because of her interest and concern. Again, I am very 
pleased that she has joined us, the gentlelady from Florida, 
Ms. Brown, you are recognized.
    Ms. Brown. Good morning. First of all, Mr. Chairman, let me 
say, driving from Jacksonville to Orlando, we have not solved 
the transportation problems.
    Mr. Mica. That may be the subject of our next hearing.
    Ms. Brown. But I would like to give everyone here a very 
warm welcome, and thank the witnesses for being here today. I 
would also like to extend a special thanks to Congressman Mica 
and Congressman Towns for inviting me to this hearing today to 
address the recent increase in club drugs.
    This has adversely affected our area youth and, quite 
frankly, I am really here to just listen and see what we can do 
as Members of Congress to affect this American drug threat in 
central Florida, but quite frankly all over the country. So 
thank you for inviting me, and as I said before, I am here to 
listen.
    Mr. Mica. Thank you so much, Ms. Brown.
    Pleased now to turn to our first panel of witnesses. For 
the information of our panelists and also for those attending 
today, this subcommittee is an investigations and oversight 
subcommittee of the House of Representatives. And in that 
regard, we do swear in all of our witnesses. You will be sworn 
in just a moment.
    Furthermore, if you have lengthy statements or 
documentation, information you would like to be made part of 
this congressional record, upon request through the Chair and 
with unanimous consent, that will be made a part of the record. 
So we would ask you to limit your oral presentations this 
morning, but again, feel welcome to provide us with additional 
data.
    Mr. Towns moves that the record be left open for a period 
of 2 weeks?
    Mr. Towns. Two weeks, yes.
    Mr. Mica. Without objection, so ordered.
    And with that, we had a number of requests from individuals 
who wanted to testify. Unfortunately, given the time 
constraints and the business at hand, we were not able to 
accommodate all the witnesses today. But again, Mr. Towns has 
moved that we will, and we have passed authorization to include 
in this congressional record from this hearing, and part of 
this hearing's record, statements from those individuals and 
organizations who are concerned, and would like to have some 
contribution as far as testimony. So we will leave that open.
    With that, our first panel of witnesses, first of all is 
Mr. Jim McDonough, he is the director of the Drug Control 
Policy Office, the Executive Office of the Governor of the 
State of Florida. Second witness is Patty Thompson, special 
agent, the Florida Department of Law Enforcement, coming from 
Tampa. And a third witness is Lieutenant Mike Miller, and he is 
with the Orange County Sheriff's Office.
    If the witnesses would please stand to be sworn, and raise 
your right hands.
    [Witnesses sworn.]
    Mr. Mica. Witnesses answered in the affirmative. Let the 
record reflect that.
    I would like to welcome each of you, thank you for being 
with us today. And we will at this time recognize Jim 
McDonough, who is the director of our Florida Drug Control 
Policy Office. Mr. McDonough, you are recognized.

   STATEMENTS OF JAMES R. MCDONOUGH, DIRECTOR, FLORIDA DRUG 
CONTROL POLICY OFFICE, EXECUTIVE OFFICE OF THE GOVERNOR, STATE 
 OF FLORIDA; PATTY THOMPSON, SPECIAL AGENT, FLORIDA DEPARTMENT 
 OF LAW ENFORCEMENT, TAMPA; AND LIEUTENANT MICHAEL E. MILLER, 
                 ORANGE COUNTY SHERIFF'S OFFICE

    Mr. McDonough. Thank you, Mr. Chairman. Thank you for 
holding this meeting and thank you for inviting me here to 
testify before you. My thanks also to Congresswoman Brown and 
Congressman Towns. I have had the honor of working with this 
subcommittee in Washington in my prior job with the Office of 
National Drug Control.
    Per your request, I will restrict my remarks today to club 
drugs, which I do believe is a serious problem in Florida, and 
by extension, I think it is a serious problem in the United 
States. But I do want to highlight the fact, as you do, sir, 
that all the drugs that are now besetting our people are, and 
remain, a problem. So heroin remains a very serious problem, 
particularly in this part of the State, but throughout the 
entire State, and cocaine does as well. But let me focus for 
today on club drugs.
    If I may, sir, I would like to submit my remarks for the 
record, and just sum them up.
    Mr. Mica. Without objection, your entire statement will be 
made part of the record. Please proceed.
    Mr. McDonough. With regard to club drugs, about a year ago 
this time, we began to suspect that we had a problem in the 
State. My office had recently been formed and I had spent much 
of the opening months going around the State looking at the 
traditional sorts of drugs. And then, in my travels, I began to 
hear increasing reports of the club drug scene.
    About that time, having read various newspaper accounts and 
talking with various experts, I believed that we had in the 
State, over the last 18 months from that time, a total of six 
club drug deaths. And in a early discussion of that, I likened 
it to a serious problem with a recreational park ride, and 
offered the opinion that if this, in fact, was a ferris wheel, 
we would quickly close it down, take a look at it and see what 
the problem was and fix it before we proceeded. But the number 
that stuck in my mind about this time last year was six.
    As I began to ask law enforcement officials what they were 
seeing, they quickly associated the club drug scene with the 
rave scene, and I discovered there that what we actually were 
seeing was widespread use of so-called club drugs. And I might 
put in at this point, it was very seldom a single drug, but 
usually it was multi-drug, poly drugging, or the most graphic 
description given to me was drug soups. And as we have gone 
through our study, we find that is exactly what we are seeing. 
And that is not just the club drugs, but other drugs as well, 
such as heroin and cocaine.
    We launched therefore an operation last year which we 
entitled Operation Heat Rave, which was essentially phased with 
training, with some information efforts, and then actually a 
move against 57 so-called rave clubs throughout the State. And 
we were amazed by the take. I was first amazed by the reports 
getting in the undercover phase of the operation, which lasted 
a couple of months, by the scene itself, well depicted in the 
article that you referred to, Mr. Chairman, and I will not go 
beyond that.
    But at the end of the Heat Rave effort, we had come up with 
over 1,200 arrests and over $7.5 million worth of drugs seized. 
And about almost 140,000 of these were club drugs, doses of 
club drugs. So we then realized we had a major problem, but we 
did not know the extent to which physical harm was being done 
to the users.
    That led us in December 1999 to go to the medical examiners 
in the State, there are 24 of them, and request submissions of 
club drug-related deaths, and to capture this as best as we 
could at the time. That is when NIDA came out with its original 
recognition of the club drug epidemic, as they call it. We went 
with a list of 20 drugs or their analogs that would indicate 
that club drugs may have been used. And the numbers started 
rolling in in January and continue to come in.
    But as of May 15th, what we were able to determine, that if 
you aggregated the direct cause of death and related cause of 
death, we believed in Florida that we had a total of 188 dead 
in the last 3 years. We took the years 1997, 1998, 1999.
    Now a quick note on that because I am getting short on 
time, we found that, of that, very seldom was it a single drug; 
almost always, it was poly drug. If you look at Ecstasy, for 
example, only seven of them were only Ecstasy. In fact, if you 
look at the only drugs, it turns out a total of 26 had one drug 
identifiable in the blood stream. And therefore, in something 
like 71 cases of the direct cause of death, we found out that 
it was poly drugs.
    Let me point out that the greatest danger here, it is an 
unrecognized problem. We had no idea of the extent of it. We 
are still receiving data, we are still getting data, but it is 
very clear that our figure of six was way off. We now believe, 
with some degree of assurance, that we are pushing up toward 
some 200 deaths over the last 3 years, and early signs of this 
year, that number continues to remain high.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you. Pleased to recognize Patty Thompson 
now, and she is a special agent with the Florida Department of 
Law Enforcement. Welcome and you are recognized.
    [The prepared statement of Mr. McDonough follows:]

    [GRAPHIC] [TIFF OMITTED] T1692.005
    
    [GRAPHIC] [TIFF OMITTED] T1692.006
    
    [GRAPHIC] [TIFF OMITTED] T1692.007
    
    [GRAPHIC] [TIFF OMITTED] T1692.008
    
    [GRAPHIC] [TIFF OMITTED] T1692.009
    
    [GRAPHIC] [TIFF OMITTED] T1692.010
    
    [GRAPHIC] [TIFF OMITTED] T1692.011
    
    [GRAPHIC] [TIFF OMITTED] T1692.012
    
    [GRAPHIC] [TIFF OMITTED] T1692.013
    
    [GRAPHIC] [TIFF OMITTED] T1692.014
    
    [GRAPHIC] [TIFF OMITTED] T1692.015
    
    [GRAPHIC] [TIFF OMITTED] T1692.016
    
    [GRAPHIC] [TIFF OMITTED] T1692.017
    
    [GRAPHIC] [TIFF OMITTED] T1692.018
    
    [GRAPHIC] [TIFF OMITTED] T1692.019
    
    [GRAPHIC] [TIFF OMITTED] T1692.020
    
    [GRAPHIC] [TIFF OMITTED] T1692.021
    
    [GRAPHIC] [TIFF OMITTED] T1692.022
    
    [GRAPHIC] [TIFF OMITTED] T1692.023
    
    Ms. Thompson. Thank you for the opportunity that I have to 
testify before you all today.
    I have had the unique opportunity of working many different 
kinds of people and subcultures. For example, we worked 
alternative lifestyle establishments, we have worked places 
that cater to bikers, black people, white people, Colombians, 
Puerto Ricans, gothic, just to illustrate a few.
    I have been working multi-jurisdictional undercover drug 
operations now for approximately 7 years. About 4 years ago, we 
started working, investigating undercover places that catered 
to raves and traditional raves, what we would refer to as a 
traditional rave several nights a week, 1 to 3 nights a week, 
several hours at a time. Quite frankly, the first time that we 
walked in, in comparison to these other types of 
investigations, we were shocked by the open, flagrant use of 
drugs on the inside of the club. One of the very first times I 
ever went inside one of these clubs, in less than 15 minutes--
and keep in mind, I did not know much about them--I was offered 
drugs, approached and offered drugs, using terms like rolling, 
blowing up and beans. I had pills in my pockets in less than 15 
minutes.
    This had never happened in other types of investigations. 
Typically we would be there for 2 or 3 weeks and get known, 
even though the place was a problem. I know we all have in our 
minds that drugs are in every bar, and yes, when the numbers 
grow up, we are able to make some buys. But not all bars or 
clubs are a problem, and certainly not to the extent.
    The best way I can illustrate this is to describe for you 
my observations on a typical night of work. I would begin work 
about 10 p.m. I would meet my partners and we would be inside 
the clubs by 11:30. People would just start coming in at this 
time. There would be a long line outside of about 100 to 200 
people, and by the time 12:30 rolled around, there would be an 
average of 400 people on the inside of one of these clubs.
    I would start approaching people after I observed them 
making hand-to-hand transactions of small objects in exchange 
for U.S. currency, and I would ask them, not if they had any 
beans, which refers to Ecstasy, because I quickly learned that 
they had a lot more, I would ask them what they had tonight. 
And they would tell me, well, what would you want? And I would 
say, well, what do you have? And they would tell me, Ecstasy, I 
have got LSD, I can get GHB for you, you want some sex pills, I 
have got oxycodone, hydrocodone, whatever you would like to 
buy. Keeping in mind, I have purchased and seized all of these 
substances.
    We would make a couple of drug buys and then we would move 
on, observe, make a couple of more observations, move around 
the club. I would see people that I knew were under obvious 
effects of substances, based on my training and experience. I 
would walk to another area of the club and I would see a female 
crouched in the corner, somebody would kick her and ask her if 
she was all right and walk on. Of course, I would have to stop 
and check on her. She was passed out completely cold. I would 
leave the bar because it was too loud for me to use my cellular 
telephone on the inside, and I would call EMS, and I would 
check with my partner and wait for EMS to respond.
    If the person had not been taken out by their friends and 
tossed in the back seat of a car and driven around for 4 hours, 
not knowing if they had already passed out and died, then EMS 
would be able to take care of the problem.
    Then I would walk back inside the bar, finding out that my 
other partners had made two or three more drug purchases, and I 
would attempt to purchase more drugs. I would make one or two 
buys, and then by this time I would have to use the restroom.
    I would go into the restroom and immediately I would smell 
the stench of vomit. I would try to use one of the stalls, and 
there would be a female crouched down on the floor, her knees 
in vomit, and she would be vomiting in the stall. I would go to 
another stall and it would not work. It would be inoperable and 
there would be vomit on the floor. I would leave that restroom, 
I would probably leave the club, go use the restroom and come 
back.
    I would walk around, make a few more observations, I would 
approach another suspect, male or female, and ask them if I 
could purchase drugs. He would then exhibit a Mini-M&Ms 
container, for example, full of LSD geltabs, and jingle his 
pocket around indicating to me that he had about 80 or 100 
Ecstasy tablets. I would make another purchase.
    My partners and I would leave the bar at approximately 3 
a.m. when it closed, after hearing about the after-party that 
was to occur. We would go back to the office, we would take 
notes for about 1 hour, exhausted before we would go home and 
rest.
    Then the next day we would come into the office and we 
would type a report, begin typing a report that would take 
approximately 1 week, because we would be not only 
investigating the people, but we would be investigating the 
owners of the club for fostering or condoning an environment 
where drug activity flourished. That was our objective, and we 
were very successful in accomplishing that many times.
    After we did that, we would go back and do it all over 
again, at least 1 or 2 more nights a week, in that same bar or 
another bar. And my desk was full of complaints. Much of the 
same.
    You can go to any high school, any local high school and 
ask them what the No. 1 drug of choice is. They will tell you 
it is Ecstasy, most of them can go to the Internet and pull up 
the recipe for GHB, they can tell you all these things. This 
club drug trend is a trend that is not going to go away.
    Thank you.
    Mr. Mica. Thank you for your testimony. And now we will 
turn to Lieutenant Mike Miller, who is with the Orange County 
Sheriff's Office. Mr. Miller, welcome and you are recognized.
    Lieutenant Miller. Thank you, Congressman. On behalf of 
Sheriff Beary, thank you for inviting us here to speak. I think 
this is a very important issue. We spend a lot of our resources 
in my unit and at the Sheriff's office addressing club drugs 
and rave clubs.
    I will make some brief comments and then I have a video to 
show you that I think paints a very good picture of a lot of 
what Ms. Thompson just described.
    I have been in law enforcement since 1980, I feel like I am 
in the third wave of drug epidemics. I went through crack 
cocaine in the early 1980's, I have been through heroin in the 
1990's, and now it appears the new millennium brings us 
designer drugs. You cannot really talk about designer drugs 
without talking about rave clubs. To me, they are integral 
parts of one another. They seem to be the focal point for where 
you can find them and the distribution of these types of drugs.
    The video I will show you will kind of depict the scene, 
but often, hundreds to thousands of kids will flock to a rave 
club. We have some in central Florida, it is not uncommon to 
have 500 to 1,000 kids there on any given night.
    The clubs themselves are not always necessarily bad or 
involved in illegal activity, but they do seem to be the focal 
point for designer drug use. Let me take you to a rave club for 
just a moment, and I will try to narrate some of what goes on 
there because it is hard to tell. But it should be up on your 
monitor. Not all of the footage you will see is Orange County, 
but it is all Florida.
    [Video begins.]
    Lieutenant Miller. This footage is inside, and some is 
outside. You see a lot of Vicks inhalers being blown into 
people's eyes. Obviously people under the influence. A lot of 
paraphernalia on display and for sale at a lot of these clubs. 
That is GHB.
    Again, the main draw is the dancing and music, but there is 
a lot else going on there. This is, I believe, a GHB overdose. 
A lot of rubbing and massaging to enhance the effects of 
Ecstasy. Again, the Vicks inhaler being blown in the eyes. That 
is all designed to enhance the high. This is the young man who 
passed out outside the Firestone store in Orlando. And I think 
that speaks for itself.
    [End of video.]
    Lieutenant Miller. Clearly there is a lot going on there, 
and you could not appreciate it truly without being there in 
person. But let me share with you some street names that we 
hear commonly when we deal with designer drugs. When you talk 
about a drug, ``easy lay,'' ``grievous bodily harm'' or being 
``K-holed out,'' that is the users talking about these drugs. 
They know the effects, they know the dangers. They are just 
willing to take that risk. They are at a time in their lives 
when that risk is worth it, to be in the party, in the groove, 
in the scene. Most of these drugs are dangerous chemical 
compounds brewed up in home labs. There is no regulation, there 
is no control. The average age of users runs anywhere from 18 
to 25 years of age, and they are often used in combination with 
alcohol and other drugs.
    We did an analysis of our overdoses, both fatal and non-
fatal. Just in unincorporated Orange County, one out of four 
were designer drug overdoses. I have provided you some charts 
to review that show you kind of the progression of the problem, 
if you look at it from the overdose perspective.
    Unfortunately, with designer drugs also come a wide range 
of other crimes. Of course, vehicle accidents are very common 
with designer drugs, because these kids have to leave the club 
and get home. But also, sexual batteries. A lot of these drugs 
are used to take advantage of young men and women and victimize 
them.
    Why central Florida? That is probably a good question. I 
would say our central location in the State, we have two 
community colleges and a State university here. But I think our 
problem probably mirrors Tallahassee, Gainesville, anywhere 
where there is young people in abundance.
    Like so many other issues, we rely on your strong 
leadership, your Federal funding, your HIDTA dollars to help us 
to fight this battle, because it is not an easy battle, and it 
eats up our resources. One of the things that we have been able 
to do is to funnel some of our resources into education. I have 
provided Mr. Diaz from your staff with a copy of a ``Kids and 
Drugs'' tape that lays out very, very clearly and with good 
video what each drug looks like, what are the dangers, what are 
the street names. I think that is the best way to go about 
resolving this problem, in combination with tough law 
enforcement.
    Again, in conclusion, it is a team approach, it has to be. 
All of our operations have to be multi-jurisdictional, we have 
to work together and we have to rely on your leadership and the 
leadership of our local leaders to get a handle on this 
problem.
    Thank you.
    [The prepared statement of Lieutenant Miller follows:]

    [GRAPHIC] [TIFF OMITTED] T1692.024
    
    [GRAPHIC] [TIFF OMITTED] T1692.025
    
    [GRAPHIC] [TIFF OMITTED] T1692.026
    
    [GRAPHIC] [TIFF OMITTED] T1692.027
    
    [GRAPHIC] [TIFF OMITTED] T1692.028
    
    Mr. Mica. I would like to thank each of the three witnesses 
in our first panel for their testimony. And at this time we 
will turn to some questions.
    First of all, from Mr. McDonough, some people feel that 
this, the problem of club drugs or designer drugs, is not a 
problem, that this is an overblown hype, and that these are 
harmless drugs, and could be taken without any problem. How do 
you respond?
    Mr. McDonough. I think one of the greatest problems that we 
face here is the myth that they are not a problem. Because they 
are defined as not a problem, we ignore it, parents ignore it, 
young people ignore it, and that leads directly to the problem.
    I would like to point out, Mr. Chairman, we have some 
guests with us today. Mr. and Mrs. Alumbaugh--I wonder if they 
could just stand for a moment--and Ms. Marsha Montesi. I wonder 
if Marsha could stand.
    Mr. and Mrs. Alumbaugh lost their son, Michael, to GHB. I 
believe Michael was 15 when he died, and he would have been 17 
today--is that so?
    Mr. Alumbaugh. That is correct.
    Mr. McDonough. Ms. Montesi lost her daughter to Ecstasy, 
which apparently someone placed in her drink unsuspectingly. I 
have here--thank you very much--I have here, I brought with me 
the file on 90 of the direct causes of death. These are just 
about half, less than half of the current volume I have on 
deaths in the State. These happen to be 90 that we were able, a 
few days ago, to compile as direct cause of death. These are 
just horrific stories. If I could take a moment just to refer 
to one of them.
    Let me add at this point, one of the interesting things 
about this particular genre of drug, the nodal use seems to be 
young white male. The mean age of death is 28, and it is about 
80 percent white male. The death scene I am about to recite 
just happens to be a young woman, the youngest we are now 
maintaining our files, was 15. But let me just read for a few 
moments on what these scenes look like. This is repeated again 
and again and again in the accounts we have. I will be brief, I 
will condense this.
    It talks about the author of this report responding to a 
call, to the death of a young white female. She and four other 
juveniles were together in the motel consuming Ecstasy pills 
and inhaling nitrous oxide. The deceased was found lying prone, 
face-down on a bed closet at the door. And then it goes on to 
describe the deceased, which I will skip over.
    The four juveniles--these are the survivors--admitted 
taking one pill of Ecstasy, and stated the deceased had taken 
two pills. What they had done, and this is described in the 
report, they had gone to party in a motel room. They had 
prepared a shopping list, in fact the deceased had prepared 
this, which had them going after $320 worth of Ecstasy, which 
law enforcement advised would mean about 15 pills was bought at 
that quantity. The juveniles immediately started partying.
    At approximately 3 a.m. to 3:30 a.m., the juveniles advised 
the writer that the deceased was acting bizarre, sweating 
profusely, throwing water over herself and banging her head 
several times against the wall. Some time after 4 a.m., a 14-
year-old juvenile with this group called 9-1-1, as the 
deceased, ``looked dead to her.''
    Mr. Chairman, I find all deaths sad and all drug deaths a 
tragedy. But when you deny the problem and/or are unaware of 
the problem and you have repeated scenes like this, I am very 
concerned that we have to highlight the danger of this.
    I might add, I remain in very close contact with Dr. Allen 
Leshner of the National Institute on Drug Abuse. He continues 
to research, he runs on his Website on club drugs a picture of 
your brain on Ecstasy, which I think is shocking. And I have 
tried to keep up to date with the scientific studies. Ecstasy 
and all of the others are very, very dangerous drugs. If 
anything, because of lack of knowledge and the difficulty in 
the lasting effect of these drugs in the blood stream, I 
actually believe that the overdose rates, the death rates, not 
to mention the non-fatal overdose rates, are under-reported, 
not over-reported.
    Thank you.
    Mr. Mica. Given your last statement, there has been some 
controversy about the number of deaths related, directly or 
indirectly, to some of these club drugs. How do you respond? Is 
there a problem with obtaining this information? I read also 
that there is a large number of other incidents, traffic 
deaths, where there are not autopsies performed, where it may 
appear that there was alcohol involved, but possibly mixed with 
other drugs. Are we having trouble really determining the 
number of deaths?
    Mr. McDonough. Sir, I think you know, because of your 
approach to this job, your very scientific and serious 
approach, how hard it is to go out after a new set of data, and 
then share that data, and then wait for the onslaught of 
criticisms on how valid or invalid your data is.
    What we faced in this scene, there was no data. Remember, 
sir, I was the strategist for the Office of National Drug 
Control Policy. As the strategist, I was not aware of the 
extent of the problem. When I came to Florida, I began by 
thinking we had six deaths.
    Even after Operation Heat Rave, I realized I knew seizure 
rates, but did not know medical health rates, except by 
anecdote which talked about near-fatal overdoses, fatal 
overdoses, date rapes and other debilitating health effects.
    When we, therefore, went after the data, we were in a whole 
new field. Medical examiners in the State, which there are 24, 
have different ways of keeping records. This was a new item for 
them as well. I mean, I have learned since I began this things 
like, how quickly GHB dissipates in the blood stream. It is 
gone within 20 minutes. And if you go to the urine, it is gone 
within 13 hours. So you have to be very quick.
    To be as precise as I could be with my own data, 
increasingly, I have erred on the side of caution. So, for 
example, I only count among 188 dead, that is as of May 15th, 
and that number surely will continue to change. Those where 
these drugs were present in the blood stream. If you were 
driving a bus and you died, and 17 people died with you, but 
only the bus driver had this in his blood, I do not count the 
others. Yes, it is a problem, but I think what you learn from 
this is order of magnitude. I had no idea the order of 
magnitude. I am now stunned by the order of magnitude. Thirty 
times higher than I suspected, and again, I think I am 
receiving less accurate reports than we could have. I actually 
believe we are going to have to mount a whole effort to 
determine the extent of this problem, at the same time we mount 
a scientific effort to understand the effects of these drugs on 
the central nervous system, and still yet another effort to 
interdict their supply.
    Mr. Mica. Again, you leave me with the next question, the 
supply. Where are these drugs coming from? Are they 
domestically produced, international sources? Do you have a 
handle on where they are coming from?
    Mr. McDonough. I would say I have a weak handle. I have 
asked the question of many sources, Federal, State, local, and 
I think the quick answer to the question is, all of the above.
    I actually think if you take a look at the Ecstasy trends, 
they began in Europe and then entered the United States. I 
believe Florida was one of the points of entry. They quickly 
made their way up and down the East Coast, jumped out to the 
West Coast, and have subsequently gone all across the United 
States. There is hardly a city, a major city, where reports of 
Ecstasy use do not occur.
    Methamphetamines, which I and NIDA include as a club drug, 
originated in Mexico, crossed over the border to southwest 
United States, worked its way up the coast, then out to the 
midwest and for a while stayed there. And then since has jumped 
into the southeast and northeast. It is increasingly present in 
Florida.
    If you go to the Internet on many of these man-made drugs, 
you get not only the recipe for how to make these drugs, you 
can also get locations where you can purchase the precursors to 
make the drugs. So at this point in time, we have an onslaught 
of imported drugs, home-made drugs, manufactured drugs for 
wholesale, and they are following the young crowd.
    One of the insights I have gotten from good law enforcement 
work, to include the two people sitting next to me, is how 
quickly on the Internet you can identify where there is going 
to be a rave party and attract the thousands of kids that law 
enforcement agent Miller was talking about. They are very quick 
at it. And generally what we see is the drugs show up, and the 
wholesale transactions that Ms. Thompson was talking about 
occur.
    Mr. Mica. Ms. Thompson, a quick question, and Mr. Miller, 
one quick question, and I will yield to my colleagues. You are 
from Tampa. The scenes that you described in your testimony, 
were they also in this area or in Tampa? Where are we seeing 
this activity?
    Ms. Thompson. Most of the work that I have conducted has 
been in Tampa Bay and Pinellas Counties, mostly because I have 
been requested elsewhere but there has been such a huge problem 
there and we have been involved in so many investigations, we 
have not been allowed to leave.
    Mr. Mica. It is not just Orlando, this is spreading across 
the State?
    Ms. Thompson. Most of the attraction comes where you are 
going to have a major city, where you have hotels to support 
the draw, you have clubs, you can get a large group. Promoters 
are attracting numbers. They do not make their money off the 
sale of alcoholic beverages, they make their money from the 
cover charges at the door and from the water and paraphernalia 
sales. So they are going to go where they can get the numbers.
    Mr. Mica. Mr. Miller, why can we not close down these rave 
operations?
    Lieutenant Miller. Well, the ones that are static, they are 
generally housed in clubs that conduct business 7 nights a 
week, and only 1 night a week is designated for rave clubs. So 
you always run into the obstacle, what they say, you know, 6 
nights of the week, I do not have these problems. It is just 
this 1 night. And often it is the promoter that gets the blame, 
or it is the security service that gets the blame. There is a 
lot of blame shifting, if you will.
    And what Ms. Thompson said is accurate. The way to attack 
this is to go after club owners, property owners. In Orange 
County we have been fairly successful with nuisance abatement 
action, to go in and get the consent decrees and set things in 
place that kind of prohibit the way they do business, and 
lessen the crowds and how they control the club.
    Mr. Mica. Is the local, State or Federal law adequate to 
close these places down if we have an undercover agent like Ms. 
Thompson go in, or one of your folks go in, purchase on that 
scene some illegal narcotics, do we have adequate laws to allow 
you to go in after these folks and close down these operations?
    Lieutenant Miller. We have adequate laws. I would not say 
we have adequate resources at the Federal level. For one thing, 
you know, it takes us a while to get from the street level or 
the club level to a level where we are dealing with a 
trafficker or supplier. That is where the Federal Government 
really has the best bang for the buck.
    Mr. Mica. I am learning a lot about this whole problem. I 
held a hearing in New Orleans on Tuesday at the request of Mr. 
Vitter, who is also a member of our subcommittee. The subject 
was drug testing, but the District Attorney and some of the 
others started talking about raves, which they are having the 
same problem. We had the local sheriff also testify.
    So I asked one of our young aides, a clerk, to see last 
night--Mr. Towns and I had dinner together, and asked if he 
could find the dates and places for raves on the Internet. And 
he said in less than 5 minutes he found listed--I also found 
that you could buy, through some of the booking agencies, 
tickets to some of these functions also.
    But we have got to find some way to close these operations 
down, and if you do not have the resources, we are going to 
have to see that we get the resources. And then also educate 
the population at large, to get a handle on this. Parents, I 
think, have no idea, sending their kids to some of these clubs 
that sound legitimate or dance parties, and then have them 
exposed to this quantity of deadly and addictive drugs.
    With those comments, I am pleased to yield to Mr. Towns.
    Mr. Towns. Thank you very much, Mr. Chairman.
    Let me begin with you, Mr. McDonough. When you talk about 
poly drug use, are you talking about substances like methadone? 
Would that be included in that as well?
    Mr. McDonough. When we talk about poly drugs, what you will 
see is drugs to get you high, drugs to bring you down, 
depending on your stage of activity through the time of the 
night. So you will find that alcohol is mixed in, that is 
important to keep in mind, very dangerous. GHB, Ketamine, 
sometimes LSD and Ecstasy. And by the way, some of the more 
traditional drugs are also present, so heroin remains on the 
scene, methamphetamines, which I would classify now as a club 
drug, and cocaine are all included.
    The poly drugging is really an interesting effect. I think 
the young people that use this--remember the mean age is in 
their 20's, so when I say young people, that captures most of 
the group--they are doing the drugs for various effects. They 
want the energy to dance, and they want to come off of that. 
They want to get high, they also want to get warm and cuddly. 
So they have therefore come to believe--what they have really 
learned, which I think is the most dangerous part of this, from 
this sort of environment, is that if you take drugs in 
combination, your body will do all sorts of things for you, one 
of which they have also learned, is die.
    Mr. Towns. Let me just sort of throw this out for all three 
of you. We are always anxious and eager to blame law 
enforcement as to what they should be doing and how fast they 
should be doing it and all that. What do you suggest that we 
should be doing, as Members of the U.S. Congress? Let us switch 
roles for a moment.
    Mr. McDonough. I will be very brief, and then I will yield.
    I think the most important step to take on this is the 
education. What you are doing this morning, what you have been 
doing I think is vitally important. Just getting the 
information out, clearly will send a warning to parents and to 
young people that this is dangerous.
    I think other things need to be done, better law 
enforcement, better research, scientific research, but right up 
front, it is education.
    Mr. Towns. Ms. Thompson, this is your opportunity to take a 
shot at Congress.
    Ms. Thompson. I really do not have to do that.
    Just to tell you what our problems are, basically we have 
to buy 3,000 or 5,000 pills to get the Federal Government 
really interested and involved in pressing charges against 
someone for selling that many tablets of Ecstasy to us. It 
takes a lot to get to that level, sometimes, and then when a 
19-year-old goes before a judge, they have a tendency not to 
sentence them on a Federal level for more than year, regardless 
of what the guidelines are.
    I can work and try hard to buy 10 grams of liquid acid, 
which allows me to spread it myself on a sugar cube or a 
blotter----
    Mr. Towns. How long would it take you to buy 5,000 pills?
    Ms. Thompson. Well, it depends. It depends on where we are 
in that stage of the investigation. I am in a unit now, I work 
on a different level now, mostly trafficking. But sometimes it 
can take a long time, and a lot of effort goes into it. And a 
lot of money. At that level, you are talking an average of $8 a 
pill, $8 a tablet, times 3,000. When you have got kilos of 
cocaine and heroin and all these other cases on your desk to 
worry about, where are you going to allocate your resources?
    And until now, very recently, we had no trafficking in 
Ecstasy, so no departments were willing to allocate their funds 
on purchasing many pills. I mean, why purchase 100 pills when 
one pill basically gets you the same thing. And most of the 
judges did not know about the enhanced penalty in the statutes 
so that did not do us a lot of good anyway.
    I agree with Director McDonough, the public clearly is 
being manipulated by several organizations, and I can exemplify 
this. And the kids themselves, you know, are contributing to 
it. They do not have the maturity to make the decisions when 
they read this clear misinformation over the Internet and 
through the marketing. That is the thing that is astonishing, 
is the marketing. These drugs are being marketed like no other 
drugs before. When you take the Tele Tubbies and you put them 
on an Ecstasy pill, there goes the stigma that is attached with 
cocaine and heroin and all those other drugs. And then you 
print all this information on the Internet, and it is so easy 
to access. It is so easy to manipulate a 15-year-old person's 
mind, and then have that 15-year-old who is living a totally 
different life than their parent pull one over on their parent. 
It is just astonishing.
    So the education would help us a great deal, especially 
with everyone, the parents, the church leaders, the kids, the 
judges, the attorneys and the cops.
    Mr. Towns. Yes, Mr. Miller.
    Lieutenant Miller. I agree, education is the key component. 
And the tape I gave you is a kind of quick and easy way to get 
a lot of information out in a format that people will look at. 
In 30 minutes on that tape, you will basically get the 
breakdown of five of the club drugs we have been talking about 
here, a picture of it, you can see what it looks like, it will 
tell you what it does, what the street names are. So a parent 
can look at that and quickly, if they have heard these terms 
used or they have seen that substance in their house, they know 
what it is that they need to be concerned about.
    On the law enforcement side, though, I agree with Agent 
Thompson. The Federal Government cannot stop what it is doing 
at its level and get interested in a one or two or three-tablet 
Ecstasy deal. But we have had a lot of success with crack 
cocaine in Weed and Seed areas, where we designate a certain 
area of a community and say, zero tolerance in this community, 
in this area, and the Federal Government will focus resources 
in that area. That has been very successful.
    If we could tailor something to that that addresses 
designer drugs, possibly that is an avenue to explore that 
would give us an opening to Federal prosecution, OCEDEFT 
dollars and the tools we need to conduct our investigations, 
and get to that level and rid the community of that problem.
    Mr. Towns. Would you have any statistics on whether or not 
visits to emergency rooms have increased over the past year, 2 
years?
    Mr. McDonough. I will tell you that the quick answer is, 
no. But I have a lot of anecdotal discussions. I began to 
understand the extent of the problem by going around the State, 
as I said at the beginning.
    Emergency medical people tell me that there are increasing 
numbers of overdose cases. They also tell me there are 
increasing numbers of reported date rape cases, and many of 
these drugs do put you in a stupor on to coma, where you are 
barely aware of what is happening to you.
    I do not have a capture of the entire State, very difficult 
to get. Privacy laws interfere in some ways with getting that 
data, and the other thing that gets in the way, actually, is 
the diffusion of authorities for such reporting and the 
magnitude of the problem. So the answer is no, but my 
indications are, it is an increasing problem.
    Mr. Towns. All right. Any other comments on that? Anyone 
else have anything?
    [No response.]
    Mr. Towns. All right. Thank you very much. I yield back, 
Mr. Chairman.
    Mr. Mica. Thank you, Mr. Towns. Pleased to recognize at 
this time, Ms. Brown.
    Ms. Brown. Thank you, Mr. Chairman.
    I read with interest the Michael's Message Foundation 
story, and I hope everyone gets a chance to read this. My heart 
goes out to the family. It seems like that the line that goes 
through all of this is the Internet. And when we think about 
Congress, I think if there is something that we can do, it lies 
in the Internet for people to be able to just go online and how 
do you make these kind of drugs, and where can you get the 
ingredients for these drugs, and where are we going to have the 
next meeting, all on the Internet, I think that is a problem. 
And I think it is a problem that we in Congress have been 
reluctant to address. But I think as we move forward, it is 
clearly where we have got to put some penalties or some 
guidelines. And what is your response to that?
    Mr. McDonough. Ms. Brown, I think you have very good 
insight there. If I wanted to run another Operation Heat Rave, 
the very first--in the near term, the very first place I would 
look would be on the Internet, figure out where the kids are 
going to gather, and what likely the trends are.
    I mean, I do not want to sound like we are putting the 
blame on the kids. I actually think they are the market here. 
They are the ones that are, as Ms. Thompson said very well, the 
manipulated. I believe it is the traffickers who understand the 
patterns that very quickly get the drugs in location, to either 
sell at or near the premises, or distribute to party-goers that 
will then be the agents in the field.
    So the Internet presents a daunting challenge on how to use 
it to bring this problem under control, but it certainly works 
both ways. It is an information source for the traffickers and 
for the users. It has also got to be an information source for 
responsible leaders that want to safeguard the citizens of our 
State and our country.
    Ms. Brown. One other question. Most of these drugs, it 
seems, have been produced in Europe. What are we doing to crack 
down on these houses, and have we had any raids on these 
houses, and what kind of correlation is going on between us and 
other countries?
    Mr. McDonough. I want to point out, Ms. Brown, that at this 
point it is virtually impossible to pinpoint any foreign locale 
and blame them. They are still coming in from abroad, of that I 
am sure, because I do try to stay informed from Federal law 
enforcement as well as State and local. But I think we are also 
producing great quantities here at home.
    But to answer the latter part of your question, what the 
State of Florida has done, it has scheduled all of these drugs, 
and in the most recent legislative session has passed a club 
drug trafficking bill that sets appropriate penalties for 
degrees of volume of these club drugs. We have also done such 
things--and here is a drug all by itself that is hard-pressed 
to be defined as a club drug, but is clearly associated with 
the scene--that is nitrous oxide, which has legitimate uses, 
but without a doubt has killed eight of our citizens by 
asphyxiation, and three others by related accidents immediately 
upon using it. It is present at the rave club, club drug scene. 
And what we have tried to do is criminalize the sale and use of 
that in conjunction with a drugged effect. You can still use it 
for its legitimate practices, but if you are using it to get 
high, if you are selling it to allow someone to get high, then 
we are trying to bring it under control.
    Ms. Brown. Thank you. I yield back my time.
    Mr. Mica. Thank you.
    Finally, I wanted to ask Mr. McDonough and maybe the other 
law enforcement officials that are here, we established a HIDTA 
that is concentrated primarily on heroin trafficking. Do we 
need to readjust our strategy, and what type of resources would 
our HIDTA need to deal with this, or the State need to deal 
with this new club drug problem?
    Mr. McDonough.
    Mr. McDonough. I actually laud you for your leadership on 
the HIDTAs and I am very pleased to see one here in the central 
part of the State, just as I am to see one in the southern part 
of the State.
    I would tell you that club drugs have to be integrated and 
seen as a similar threat to all other illegal drugs. I do not 
necessarily think you have to compartmentalize HIDTAs, so you 
have the club drug crew or team, but what you have to do, what 
we have to do is first of all educate, not only parents and 
community leaders, but law enforcement experts on how this 
works. We need more research on treatment, on the 
physiological, the neural effects of these drugs.
    I would argue, have argued, and continue to argue for an 
expansion of the HIDTA system in Florida in this way. I would 
like to see a third HIDTA in Jacksonville.
    Ms. Brown. Thank you, I just mentioned that.
    Mr. McDonough. We have not only club drug problems up 
there, but other problems.
    I would like to see an intelligence information linking 
between the three HIDTAs in Florida and the HIDTA in Puerto 
Rico, for a starter, so that we can react in advance. Instead 
of coming into emergency medical scenes after the fact, instead 
of having to purchase 5,000 or 3,000 Ecstasy pills to make a 
case, we prefer to anticipate the trans-shipment through such a 
connectivity, and then catch the tragedies before they happen.
    I appreciate all you have done for that. I know it is a 
question of resources. But I do believe that Florida can lead 
the effort in cutting the importation of all drugs, we could 
have such an interconnectivity between four HIDTAs, a third one 
in Jacksonville, and contact with the Puerto Rican HIDTA.
    Mr. Mica. Thank you. Did either of the other two witnesses 
want to comment on the question, is how we could be more 
effective with the HIDTA or from Federal level, in cooperation 
with your efforts?
    Lieutenant Miller. Yes, I would. HIDTA works very well for 
us. Now the sheriff's office has actually three people assigned 
to the HIDTA, two in DEA and one in Customs.
    I agree with Mr. McDonough. I do not know that we want to 
diffuse the effort that the HIDTAs are making right now, but 
clearly they need to expand their awareness, and they can do 
that through resources, information sharing, an additional 
HIDTA would help that effort. So I agree, I think HIDTA is a 
very effective tool. And if we expand it a little bit to 
include this group of drugs, it would be very, very effective.
    Mr. Mica. Ms. Thompson.
    Ms. Thompson. I would agree. The HIDTA in our area also 
concentrates very heavily on methamphetamine. A lot of our 
problem, too, is we have to educate our own officers on what to 
look for, the terms, where to go, and of course, there is an 
age and educational barrier there between the actual tactical 
issues in working these types of people. And unfortunately, 
they do cross all socio-economic barriers, so we have them in 
all different areas. We cannot define it to one area as being 
worse than another.
    Mr. Mica. I would like to thank the three witnesses on this 
panel. Did you have any further questions at this time?
    [No response.]
    Mr. Mica. There being no further questions, I will dismiss 
these witnesses. And again, we appreciate your cooperation on 
addressing this difficult problem.
    And at this time, I will call our second panel of 
witnesses. The second panel of witnesses consists of Mario 
Webster, and he is with Families Against Drugs; Debbie 
Alumbaugh, and she is a private citizen; Ernest D. Cantley, and 
he is president and chief executive officer of the Stewart-
Marchman Center, Volusia County. Pleased to welcome the three 
of you.
    And as I explained earlier to our previous witnesses, this 
is an investigation and oversight panel of Congress. In just a 
moment I will swear you in. Also, if you have lengthy 
statements or documents, data that you would like to be made 
part of the record, we can do so upon request.
    If you would please stand at this time and be sworn.
    [Witnesses sworn.]
    Mr. Mica. Let the record reflect, the witnesses answered in 
the affirmative.
    And again, I welcome each of you this morning, and thank 
you for your participation.
    I will first recognize Mario Webster, who is with Families 
Against Drugs, for your testimony this morning, thank you. And 
you are welcome, sir, you are recognized.

  STATEMENTS OF MARIO WEBSTER, FAMILIES AGAINST DRUGS; DEBBIE 
 ALUMBAUGH, PRIVATE CITIZEN; AND ERNEST D. CANTLEY, PRESIDENT 
                AND CEO, STEWART-MARCHMAN CENTER

    Mr. Webster. Thank you for having me here, Chairman Mica. 
My name is Mario Webster, and I first started using club drugs 
in the late 1980's.
    After high school, I made an easy transition from alcohol 
and marijuana to acid and Ecstasy. At that time there was no 
information on Ecstasy. All I did know is that it made me feel 
good by giving me a false sense of unity and pleasure. I did 
not think it was a harmful drug like cocaine or heroin. I 
actually thought it was no more harmful than using marijuana 
and that it was not addictive.
    At that time, I did not think I had a drug problem because 
I felt I did drugs by choice, unlike hard drug addicts who are 
hooked physically and mentally. My lifestyle was nowhere near 
that of a crackhead. The people I hung out with were kids from 
good homes, we had nice cars and bright futures. We thought we 
were in control and invincible. But in all actuality, we were 
totally ignorant to the damage we were doing to ourselves.
    Later on, in the mid-1990's, I started using other club 
drugs, such as GHB, Special-K, Roofies and pharmaceuticals. 
Eventually heroin made its appearance onto the rave scene. By 
this time, many of my friends and I graduated to harder and 
heavier addictions. Over the years, I have seen many of my 
friends go to jail for very long sentences, both State and 
Federal, and on the other hands, I guess that is not as bad as 
the ones that I have seen overdose and die because of drugs.
    I only wish that I had the information that I have now on 
club drugs before I started using them to understand how 
addictive and dangerous they are. Not only immediately, for in 
the future. Heavy users of Ecstasy may be headed for long-term 
memory problems, research has shown that Ecstasy users suffer 
damage to their visual and verbal memory. Ecstasy depletes the 
seratonin in your brain and is never replenished. Seratonin is 
the chemical that makes you naturally feel good. The 
stimulating effects of the drug that lets the user dance all 
night, combined with the hot, crowded condition usually found 
at raves can lead to dehydration, hypothermia and heart or 
kidney failure.
    Ketamine, which is called Special-K is anesthetic for human 
and veterinary use. It can produce a feeling of weightlessness 
and even out-of-body or near-death experience. People who use 
Special-K can have long-term problems with motor skills, 
depression and respiratory illness.
    GHB is usually found in clubs in major cities. Most of GHB 
is home-grown or shipped in from the Netherlands. There are no 
guarantees as to the potency, and there is a chance that 
foreign substance may make up a large part of the drug. As with 
any drug purchased on the street, much of the real danger lies 
in not knowing what you are getting. GHB is another date-rape 
drug and can be slipped into a victim's drink leaving them 
unable to defend themselves with no recollection of the event.
    Rophynol, known as Roofies, is another date-rape drug. It 
is like a super drunk and produces sedative, hypnotic effects, 
including amnesia. Guys will give it to a girl so that he can 
rape her and she has no memory of it. Chronic use of Roofies 
can result in physical dependence.
    Nitrous oxide, which is also known as whippitts is one of 
the many inhalants. With moderate amounts, users feel less 
inhibited, less in control, light-headed and giddy. Large doses 
can cause unconsciousness, and it can cause death because it 
gets into the lungs and does not allow oxygen to get out of the 
lungs and go to the body organs.
    In many instances the club drugs are used in combination to 
intensify their effects. They are mixed with alcohol and harder 
drugs such as cocaine, crystal meth and heroin. The cocktail of 
uppers and downers is danger because everyone has different 
chemical make-up and there is no way of knowing the potential 
harm.
    I feel the best way to combat the popularity of club drugs 
is through prevention and education. You should start by 
educating both parents and children in elementary schools, and 
more government funding is needed. Younger age groups are 
abusing club drugs everywhere, so I think more straight-forward 
information needs to be presented earlier. Parents need to know 
the signs of drug use, and be able to recognize drug 
paraphernalia and be familiar with the drug language.
    Rehabilitation in central Florida, as well as nationwide, 
is expensive and hard to come by for those who are already 
addicted and want a way out. For those seeking help, there 
needs to be more programs that are affordable and that offer 
continuous support. Rehabilitation should also be provided for 
addicts that are incarcerated, as well as additional help after 
release.
    I started using pot and alcohol as a teenager, but I slowly 
started breaking all the barriers I set for myself. I used 
every drug except for nitrous oxide and ended up with a heroin 
addiction. I guess I was expressing my freedom to do with my 
body whatever I wanted to, but in the long run, I lost my 
freedom to drugs. Drugs controlled my life and I wanted to die. 
The only thing that saved me was that I got arrested and had to 
kick heroin in jail, cold turkey. I knew that if I survived 
that, I would never go back to drugs. I was sent to rehab after 
I got out of jail, and I have been clean ever since.
    I joined FAD a year ago, and educating kids and parents 
keeps me clean and honest.
    Mr. Mica. Thank you for your testimony. And I would like to 
recognize now Debbie Alumbaugh, and she is a private citizen 
and also experienced a tragedy in her family she will describe.
    Just pull that right up to you.
    [The prepared statement of Mr. Webster follows:]
    [GRAPHIC] [TIFF OMITTED] T1692.029
    
    Ms. Alumbaugh. OK, thank you.
    First of all, I would like to thank you. It is an honor and 
privilege to be here. This is our son, Michael, and he was 15 
years old when he died. I am the surviving mother of Michael. 
That was 20 months ago.
    We lost Michael to the date rape drug, GHB, or Gamma 
Hydroxybutyrate. The cause of Michael's death was aspiration 
vomitus and GHB toxicity.
    Michael was a sophomore at Westwood High School in Fort 
Pierce, FL. He was a black belt in karate and was also an 
instructor. He had won several academic awards for reading, 
music, mathematics and spelling and he was on the honor roll.
    On October 1st, 1998, Michael went to school, as any normal 
day. During the break between second and third periods, he 
complained to a friend of a headache. Another child overheard 
the conversation and offered ``Michael, I have these pills, 
they will make your headache go away and make you feel 
better.'' Michael made a wrong choice. He accepted these pills. 
We found out from the autopsy that this was methadone.
    Michael asked if he could go to the show that evening with 
some friends. This was unusual for a school night, but he was 
doing well in school. Before he left, a friend came to the 
house. They went directly to Michael's room. This is where the 
transaction of GHB occurred. As we understand it, Michael never 
saw the first 5 minutes of the movie. When he got home, 
Michael's father looked at him and asked, are you on something, 
son? Did you take something? No, dad, he replied. After 
continuous questioning, he finally admitted that they had 
smoked some pot. Brad decided not to lecture Michael this late, 
he would talk to him tomorrow. Brad never got that chance, 
Michael died that night, in his safest place of all places, 
alone in his bed.
    The next morning the phone rang. Brad, Michael's not at the 
bus stop, the voice said. Brad got up to wake Michael, he could 
hear his alarm blaring. Michael did have intentions of getting 
up to go to school. When he opened the door, he knew our son 
was dead. He was on his back, his eyes wide open and glassy. He 
had vomited from the chemicals in these designer drugs. Dried 
vomit ran down his chin into a puddle in his collarbone. His 
hands were in a clawed position, where he had tried to roll 
himself over, but he could not because these drugs paralyze 
your motor skills.
    Because we did not know why our son had died, there had to 
be an autopsy. It took 12 weeks for us to know what happened. 
None of his friends would come forward, and there was nothing 
in the blood or urine, GHB leaves the body that quickly. They 
took our son's brain, and that is where this drug was found.
    There is no antidote for GHB toxicity. If you do go into a 
coma, you will die unless your constitution is strong enough to 
pull you out. Most are not. In the last 3 years, we have lost 
189 young people to designer club drugs in Florida alone. That 
is 188 tragedies just like ours.
    After several months, Michael came to his father in a dream 
and said, dad, it is wrong for us to destroy the body the way I 
did. You and mom must tell my story. You do not have a clue 
about the drugs that my friends and generation are faced with 
every day. Brad and I got enough courage and strength and we 
made the first call.
    Brad called St. Andrews where Michael had attended school. 
Ms. Schroeder welcomed us with open arms. When we went to the 
school, and as I stood in front of all these beautiful young 
faces, I started, we are not here to lecture or accuse any of 
you of being bad kids. We are here to share our experience of 
losing our child to drugs. That is when Michael's Message 
Foundation was born.
    I tell the students what took our son's life and then tell 
them a little bit about Michael, that he was not only a great 
son but a loving son; and yes, today is my son's birthday. He 
would have been 17.
    We are in the process of filing the paperwork for Michael's 
Message Foundation to be a non-profit organization. We travel 
to schools in Florida from 6th grade to 12th, sharing our son's 
story. Our goal is to take Michael's message nationwide in the 
hopes of saving another family the heartache and devastation 
these drugs have caused our family. Our children are our 
tomorrows. If we keep losing them, tomorrow will never come. We 
feel that Michael's message should be heard by parents and 
grandparents also.
    We have teamed up with the Substance Abuse Council of 
Indian River County, and they have graciously offered to adopt 
us until we can get the foundation up and running. They plan to 
assist us in getting literature printed and schools scheduled.
    I am here today with the hope that laws will be made to 
punish the individuals who distribute these deadly drugs. No 
one was arrested for our son's death. The report reads, ``due 
to the fact that there was no intent to harm him, no crime was 
committed.'' After sharing Michael's story, students come up 
and do ask, what happened to the supplier? The guilty need to 
be made examples of.
    We know you are all concerned about our youth, and that is 
why we are all here today. Thank you for asking us. Our kids 
are begging for help. Let us unite and make our schools and 
streets safer for everyone.
    Mr. Mica. Thank you for your very compelling testimony.
    At this time, I am going to recognize Ernest D. Cantley who 
is the president and CEO of the Stewart-Marchman Center.
    [The prepared statement of Ms. Alumbaugh follows:]

    [GRAPHIC] [TIFF OMITTED] T1692.030
    
    [GRAPHIC] [TIFF OMITTED] T1692.031
    
    Mr. Cantley. Chairman Mica, I thank you for having this 
hearing and inviting me to participate. I have enjoyed working 
with you and watching you become a State, national and 
international leader in the field of addictions over the last 
few years, and I am honored to be here. Congressman Towns, 
thank you for being here; Congresswoman Brown, another one of 
my Congress Representatives, we sure appreciate you and your 
efforts.
    My official role as president of Stewart-Marchman Center is 
that of a drug abuse treatment, education, prevention center. 
We heard earlier some discussions from the southwest end of I-
4, you know, from Ms. Thompson. I am actually on the northeast 
part in Volusia County.
    A recent article here in the Orlando Sentinel identified 
the number of deaths here in central Florida. And if you look 
at that over the year 1998 and 1999, there were 14 deaths in 
Brevard, Lake, Orange, Osceola and Seminole. There were 11 
deaths attributable to Volusia County. Volusia County, I will 
tell you, is less that 450,000 in total population.
    Because some of the information is questionable, you know, 
we went to Mr. McDonough's office and got some further 
clarifications on those Volusia County deaths. And in my report 
here, this is presented on the second page. Basically, there 
are five deaths related to MDMA or Ecstasy. This means that 
they died from some other cause, but the Ecstasy was in the 
body, not necessarily the cause. Deaths due to methamphetamine, 
there was two. Ecstasy, directly, one. To multiple club drugs, 
one, and methamphetamines, there was one.
    In effect, while there is a little bit of differences in 
the numbers, the message is very clear. There is something 
special going on, you know, in this area, in this State, and 
particularly in Volusia County. I have not seen anything like 
this, and what I have been hearing, since late 1984 with the 
beginning of crack cocaine in this area. It is scary, what I am 
seeing.
    In order to get a better handle, you know, on what is going 
on, to prepare my remarks here, we decided to go to the real 
experts, and that is going to some of the kids that we have got 
in our adolescent residential treatment program at Stewart-
Marchman Center in Daytona Beach. Basically we have 26 kids in 
this program, 16 of them had reported experience with some form 
of club drugs.
    We followed that with a little focus group, with five of 
the kids, just to really get some of the specifics, and on the 
fourth page of my remarks that I submitted to you previously, I 
would just like to review some of these statements because--and 
some of them may not be 100 percent accurate, but they are 
accurate as to the way that they was presented by the kids. So 
it is very important, I think.
    First they are talking about Ecstasy. It is sold as beans, 
using it is called rolling. It is a cocktail, a variety of 
different drugs. Strongly euphoric; $11 to $25 per bean. Beans 
had cocaine, heroin, all sorts of things in them; 90 percent of 
the time, it includes heroin, coke, speed. You can tell some of 
the pills, like the ones with heroin will have brown spots. The 
dirtier, the better. Dirty beans smell. Dirty beans are more 
common than clean beans. Normally when I think of a bean, I 
think of almost every drug I can think of.
    GHB. Do not know what it is, but it gives a drunken 
feeling, a kind of hormone. Preferable to alcohol because two 
to three caps will trash you, and you do not feel hung over the 
next day.
    Rophynol. The past couple of months, Roofies have become 
more available again.
    Ketamine, a cat tranquilizer, sold in three forms. 
Ketamine, Ketacet for oral and Ketaject for IM usage. Very 
profitable because people obtain the drug by stealing it from 
humane societies or vets' offices.
    LSD, it enhances the effects of the clubs. Used with 
Ecstasy, it is trolling, or tripping and rolling at the same 
time.
    And finally, alcohol is always there in combination.
    The next question is, who uses it? And basically it is a 
cross-section, lots of people who do not use other drugs use 
Ecstasy. It is sophisticated users. This is, by the way, coming 
from 15, 16 and 17-year old kids.
    Ask, have you or anyone you ever known have trouble with 
what they would refer to as an overdose? Yes, throwing up. A 
lot of people take beans and try to throw up because that 
increases the effect. You might pass out for a minute or two. I 
saw a girl on her birthday who ate a lot of beans. She fell out 
on the dance floor in convulsions. She was taken away by 
ambulance, and I heard later that she had died.
    This is kind of consistent throughout. They just really 
have no idea or perception about the finality of what really 
happens. And even when it does to someone else, they kind of 
downplay it and it does not seem to be as significant as to you 
and I.
    There is all kind of other issues and questions, statements 
here attributable to these kids. The bottom line of the whole 
situation is that the kids in our treatment programs know a 
whole lot more about the club drugs than do the staff that is 
trying to deal with them. And this really points out a major, 
major effort that we need to concentrate on.
    I know everyone is talking about the need for prevention, 
education services, and I totally agree. But we have absolutely 
got to concentrate on the professionals in this field to try to 
bring them up to speed. Crack cocaine earlier, it took the 
system about 2 years to really adjust to that onslaught, 1984, 
1985. We cannot wait this long here.
    We have no idea in the State of Florida how many club drug 
users are in our treatment system, and it is another issue that 
I make in my remarks, and I am going to provide to Mr. 
McDonough. One of the real problems we have got is a State 
reporting system that we have does not ask by name for the 
drugs, the club drugs in our reporting system. So therefore, 
the kids that is in our treatment program, we just really have 
no idea what they are there for. We know a primary drug may be 
heroin, but the club drugs, if they are used in conjunction 
with that, is not there.
    With that, Mr. Chairman, I thank you for the time and the 
remarks and we look forward to your questions.
    [The prepared statement of Mr. Cantley follows:]

    [GRAPHIC] [TIFF OMITTED] T1692.032
    
    [GRAPHIC] [TIFF OMITTED] T1692.033
    
    [GRAPHIC] [TIFF OMITTED] T1692.034
    
    [GRAPHIC] [TIFF OMITTED] T1692.035
    
    [GRAPHIC] [TIFF OMITTED] T1692.036
    
    [GRAPHIC] [TIFF OMITTED] T1692.037
    
    [GRAPHIC] [TIFF OMITTED] T1692.038
    
    [GRAPHIC] [TIFF OMITTED] T1692.039
    
    [GRAPHIC] [TIFF OMITTED] T1692.040
    
    [GRAPHIC] [TIFF OMITTED] T1692.041
    
    Mr. Mica. I thank you. Let me if I may first turn to Mr. 
Webster.
    Mr. Webster, you have sort of been through it and survived. 
What are we going to do to get this situation under control and 
get the attention of young people and parents?
    Mr. Webster. The best solution I see is, you have got to 
start early on. You have got to get into elementary schools, 
even middle schools. Right now, my group, Families Against 
Drugs, I work with Tinker Cooper, we will go out and speak to 
any school that will let us in there. Our biggest problem is we 
run into road blocks. We run into principals or political 
members who say the video that we show, Overdose, is too 
graphic. And it is not, to me. I mean, it basically shows crime 
scene footage of overdose victims, and places that we have 
shown it, it has been a very effective tool and it hits home to 
the kids because they know kids that are out there partying in 
the middle school and high schools.
    And I think if we can just get more cooperation here in the 
community and stop ignoring the problem--we have a lot of 
people that say, there is no problem, we do not need that in my 
school. We had a parent who kept saying that out in Oviedo, 
because her son had overdosed, and we have been trying to get 
out there. And they would not let us, like, we do not have a 
problem. Then a week or two later they had a bust out there, 
and they busted all these kids in the school, and now they are 
blaming the law enforcement for setting up their kids. And they 
are still in denial that there is a drug problem.
    So our biggest problem is getting out there and getting in 
the schools and getting where it needs to be educated. That is 
where it needs to be because these kids are starting younger 
and younger, and I see it, and I hear you mention that, by 
shutting down the rave clubs, there is another catch-22 to 
that. And what is going on now with the young kids is that they 
are not going to the clubs. They are having blow-up parties, 
they call them. They go to a friend's apartment or they get a 
hotel room. Most people know the heat is on them, and what they 
are doing is going underground. I mean, if you can get the 
drugs off the street, these kids are going to take it and they 
are going to go underground. If you shut down the clubs, you 
pose another threat. You have got people in their own homes, 
and they are overdosing, and they do not have a club there, 
bouncers to drag them out and get an EMS there. They are 
overdosing and you have got scared kids, and that is how most 
of these overdoses happen. These kids do not call EMS, and that 
is another problem.
    Mr. Mica. We, in Congress, funded, about 2 years ago, a $1 
billion drug education program, almost unprecedented in the 
history of the country. It is matched by another $1 billion of 
donated time or services in education and media-directed. Have 
you seen any of this, and can you give me a frank assessment? 
Is this effective? Should we continue it or how could we better 
spend the money to get the message that you are talking about 
out?
    I will ask Mr. Webster and then I will ask Ms. Alumbaugh.
    Mr. Webster. Like in Families Against Drugs, I deal with 
parents that have dealt with overdoses, such as Ms. Alumbaugh. 
And we go out and we speak, and they get a point of view, I 
have been in it. And I have done the drugs, and I know what is 
out there.
    Mr. Mica. What about our $1 billion effort?
    Mr. Webster. It is kind of milk toast. I see the stuff that 
has been going out there.
    Mr. Mica. It is not tough enough?
    Mr. Webster. Yeah, it is not tough enough. It needs to be 
more straight, to the point. These kids laugh at it. You know, 
it is like the Nancy Reagan ``Just say no'' thing. I do not 
even see it; that is what kids say. And I hear what is going--
they laugh at D.A.R.E. I was talking to some kids last night 
telling them what I was doing now, and they went through the 
D.A.R.E. program. They tell me, oh, man, we used to laugh at 
that stuff. And they are kids that go out and use.
    They need to have younger people out there giving it to 
them, not so much as people that are maybe law enforcement. 
Sometimes kids get intimidated by that and they blow that off. 
A lot of times they need to talk to people that have been 
through it, and see parents, like they have parents. And when 
they see a mother grieving or a father grieving and telling 
their story, that really hits home, and it does need to go to a 
lower level.
    You get kids when they are young, educate them, they know 
what they are putting into their system, knowing that they are 
mixing chemicals and their body chemistry, there is no way of 
telling what is going to happen to them. I think that is not 
being taught to the young people today. They are just getting, 
oh, just say no to drugs, this is bad, this is bad, this is 
bad, and then they get hold of it and they go, oh, I feel good. 
You know, then they just ignore everything that was taught.
    Mr. Mica. Ms. Alumbaugh, did you want to respond?
    Ms. Alumbaugh. I agree with Mr. Webster. The response that 
we get from going to the schools, there is silence when we are 
speaking. And I can submit letters to you from children.
    Mr. Mica. Well, as to the billion-dollar-plus and another 
billion?
    Ms. Alumbaugh. It is not working. They are not listening.
    Mr. Mica. It is not working and they are not listening. It 
is not effective?
    Ms. Alumbaugh. No.
    Mr. Mica. OK. Because we are going to conduct--I have 
conducted one hearing, after we completed 1 year last October, 
I believe in November we conducted one hearing. We are 
scheduled to--we were scheduled, I think, just before we 
recessed, General McCaffrey was not able to participate. But we 
need to go back and look at how we are spending that money. If 
you are telling it is not effective, and I have heard this 
repeated over and over.
    Ms. Alumbaugh. Yes.
    Mr. Mica. Maybe you could give me a quick assessment, Dr. 
Cantley?
    Mr. Cantley. My opinion is, it really depended upon who the 
intended audience is for those ads. If it is for teenagers that 
may be or are close to using or may be using right now, I think 
it would be totally non-effective. However, I think it does 
have some positive traits in the area of working, trying to 
educate family members or other people in the community. I 
think it may prove to be marginally effective there.
    Historically, we have shown that the real heavy, hard-
hitting things, like I remember back doing the DWI things, 
where we showed a lot of pictures of automobile accidents with 
people's heads cutoff. Those proved not to be real effective. 
But I do think that there is some middle ground between that 
real gory kind of stuff and where we are right now with this 
one. So I think if we look at it from the kids' perspective, it 
needs to be a little bit more hard-hitting. I concur.
    Mr. Mica. Ms. Alumbaugh, you have attempted personally to 
turn a tragedy into something positive by going out into the 
community and educating young people. But you also called in 
your testimony for tougher penalties for those who deal in 
these deadly substances, is that correct?
    Ms. Alumbaugh. Yes.
    Mr. Mica. And you would like to see those who provide this 
deadly substance to be brought to justice, is that correct?
    Ms. Alumbaugh. Yes, I would. President Clinton----
    Mr. Mica. There have been proposals to increase the 
penalties for trafficking.
    Ms. Alumbaugh. Yes.
    Mr. Mica. One of the problems we have is, with some of 
these designer drugs, that the law does not keep up with the 
production of these new substances, and penalties do not keep 
up. So I think you have indicated you would like to see tougher 
penalties and people brought to justice. What do you think, is 
that going to be something we need to do also, Dr. Cantley?
    Mr. Cantley. I think we need to be very careful and never, 
in any way, shape or form, encourage anyone to sell drugs. Now, 
I will qualify that with users, sometimes we will see, you 
know, addicted people out there, the real low-level sellers, 
that many of those are dealing it from a different perspective. 
But the real traffickers, there never should be any wavering 
whatsoever. I concur, you traffic, you go to jail.
    Mr. Mica. The other thing, too, is you have had a great 
deal of experience, and described some of the response from 
young people. Some of the articles and some of the pro-drug 
culture say that these drugs are not addictive, that these 
drugs are not a problem, that people should be free to get 
high, to use these drugs at will. How do you respond, Dr. 
Cantley?
    Mr. Cantley. I think that that is one of the scariest 
things in the world. These same people will say to you, if we 
legalize--pick a drug, any drug--it is no worse than alcohol. 
It is a legal drug. And I cannot think of anything worse than 
putting another alcohol on the street with all the ills that we 
have in society as a result of that.
    The fact of the matter is, accessibility is the key to drug 
use. If it is not accessible, people will not use it. If it is 
legal, it will become more accessible. There will be more on 
the street and then it will certainly kick up the public health 
spectrum. It may assist some, I do not know, it may assist some 
in the legal aspects. But certainly not in the public health 
aspects with that. Anything you do to legalize, or make it more 
available, you are going to increase the amount of human 
suffering from it, period.
    Mr. Mica. Thank you. Mr. Towns.
    Mr. Towns. Thank you very much, Mr. Chairman.
    Let me begin by saying to you, Ms. Alumbaugh, I really 
salute you in terms of the effort that you are putting forth 
to, first of all, make certain that your son's name does not 
die in the fact that you are making certain that his loss is 
not going to be in vain. I want to salute you and your family 
for making certain that you carry on that effort.
    But let me sort of deal with this whole education issue. We 
are using the word, but I am not sure that I know where we 
should be going with it. We talk about education in terms of 
young people and then also we talk about it in the fact that, 
people that are involved with young people do not have the 
knowledge. And then we talk about the $1 billion that we are 
putting forth, and I am not sure we are spending that wisely.
    What kind of education program would you think about 
putting forth? Now, you as a person that has been through it so 
you have had some experience. And we have other folks who are 
involved with our youngsters every day that have not been 
through it, and probably have no knowledge; you know, if they 
saw a pill, might not even recognize it. So what do we do now 
to make certain that we get this education going and bring it 
to the level that we should have it in order to make certain 
that we do not lose any more children?
    Because when you look at the fact that, in this State 
alone, that you are losing 60 people a year, now that is 
multiplied by all other kinds of things, the pain and suffering 
of families, of course as Ms. Alumbaugh described earlier, the 
fact that--the director indicated, the fact that maybe it could 
be a bus or a truck, somebody could be driving. I mean, all 
kinds of things could happen as a result of this. And we have 
to sort of do something now, I think that we cannot afford the 
luxury of sitting back and saying we will fix it later or it 
will take care of itself.
    So what can we do in terms of education? What would be a 
model kind of program?
    Mr. Webster. To me the hardest-hitting thing about, that I 
learned about drugs that I had been doing, like Ecstasy, GHB, 
Roofies, is how your body has a chemical make-up. And when you 
add these kind of drugs to your body, how it can affect each 
person differently.
    I did not really know the harmful potential danger of 
Ecstasy, I did not have any information like that, I did not 
know how it depletes the seratonin. And after years of use and 
friends that have used, I have seen how it has affected people. 
And if I had known a lot of that information beforehand, I 
would have looked at it differently. I did not think there was 
any harmful effects. I mean, I used to love Fettucini Alfredo, 
and once I found that Alfredo is one of the most fattening 
things out there, I kind of looked at it different. It was not 
something I wanted to eat every night.
    And a lot of these kids that are out there partying, these 
kids are really into fitness. I mean, I know kids that work out 
at the gym and eat healthy, and then go blow-up every weekend. 
I think a lot of them, if they knew the harmful danger that 
they are doing to their body, there needs to be more 
information what it is doing to their brain. Because once 
people find out that it is affecting them in this certain way, 
it is more effective.
    And plus, they need to see things like crime footage. He 
was talking about the DUI campaign, when people see wrecks, 
sometimes that gore is effective, especially on a young person 
because that stays in the mind. And I do not see it as a scary 
thing, I see it as a thing that will keep them from going out 
there and doing crazy stuff. Because I know, I would have 
totally thought different about Ecstasy, if I had more 
information, and saw the truth and seen an overdose, a heroin 
overdose or things like that.
    Mr. Towns. Education. What can we do?
    Ms. Alumbaugh. Again, it has to come from people who know. 
We not only discuss our suffering but we discuss these drugs, 
and that they--we find that the kids are begging for 
information. They are not going to go ask the school resource 
officer what this is going to do to them. But they will come 
up, after we have spoken, they will come up to us and ask 
questions. And I myself, I speak to Mr. McDonough's office, I 
try to speak to them once a week to let them know what we are 
doing, and the letters that we get back from the kids that say, 
thank you so much for coming. Without you coming, we would not 
know this answer.
    So if we can educate the kids, and they will listen, 
because again, the D.A.R.E. leaves them in fifth grade. They 
are left on their own. And all these drugs are there, and they 
are there every day hitting them in the face. And they do not 
know where to go.
    If we can educate them and give them the information they 
need, not from the Internet, because in my speech I do tell 
them, I am here to prove the Internet wrong, this will kill 
you. And that is what they need to hear. They need to hear that 
it will kill you.
    Mr. Towns. Education, what can we do?
    Mr. Cantley. I hope you are asking me because I am just 
dying over here to respond to this question.
    Mr. Towns. Yes, I am.
    Mr. Cantley. I think nationally, and also within the State, 
we have some very good prevention programs that are 
scientifically based and are consistent. Specifically in the 
State of Florida, I think we have some real problems with our 
prevention system within the State of Florida, and that is that 
there is no uniform system of getting consistent messages out 
from Pensacola all the way down to Miami.
    We have got some good prevention programs in certain areas, 
and certain pockets, but we do not have that statewide system 
that we can take something like club drugs and all of a sudden 
start massive education of the entire State. That is, in my 
opinion, the biggest weakness that we have in our prevention 
system within this State, and this State is what I consider 
myself more knowledgeable of.
    If there was some way that we had prevention resource 
centers, in different areas of the State, that is tied to an 
overall State prevention effort, that would be able to 
distribute the same consistent information through every 
school, through every law enforcement office, through every 
parent group within the State, then I think we could be 
effective in some of the things we do.
    Mr. Towns. I think you make an excellent point. And that is 
my problem with spending the $1 billion. But the point is that 
I am not sure that we are getting the kind of results that we 
should be getting from it.
    When you talk to law enforcement, they say education is 
important. And you go to young people, they will say education 
is important. It is sort of highlighted here. And then you have 
the people that spend a great deal of time with our young 
people, in terms of the educators themselves, will say, 
education is important.
    But the point is that how do we coordinate this to make it 
work? I mean, that is my real concern. We need to find a way. I 
learned something here this morning. I really did not really 
know Ketamine was a part of this. I had no idea. This is 
something that the veterinarian gives to people with dogs and 
all. I mean, I had no idea people were using that as well. So I 
have learned something here this morning just from this 
hearing. And I am certain that there is probably a lot of other 
things that we could learn.
    So I do not know, in terms of how we coordinate that. I 
think that somewhere along the line, the Federal Government has 
a responsibility to get that package down to a community, with 
some flexibility, but to make certain that everybody is sort of 
aware of what is going on. And I think that until we do that, 
we are going to continue to lose folks, and I do not think we 
can afford the luxury of that. And I salute you for your 
efforts in terms of getting out and spreading the word.
    But here again, I think more needs to be done and that we 
need to look at how we are spending our money to make certain 
that it is being done, and being done properly.
    And back to the Internet, I think there are some things 
that we have to address there, too. I am not one for regulating 
everything, but I think there are some things that we have to 
begin to look very seriously at, if we find that it is 
detrimental to our young people and to our lives and the 
quality of life.
    So here again, thank you so much for your testimony.
    Mr. Mica. Thank you, Mr. Towns. Ms. Brown.
    Ms. Brown. Thank you, Mr. Chairman.
    Thank you all for coming with your presentations today. I 
do not know, there just does not seem to be one answer, and 
that is the problem. If it was one answer, we would do it. It 
is not one thing. It is a series of things. And when we talk 
about education, it is not just education, it is not just the 
schools, because we have got to get the parents, the families 
involved. Take your son, it just seems that from reading 
everything that I can read here is that this was a one-time 
situation. And so how do we get kids to understand one time 
could be the end?
    And some kids we probably need a harder approach, and 
others, the D.A.R.E. kind of programs is more effective, 
probably with the younger age. But it is a community problem. 
How can we get the entire community involved? We cannot just 
say, just leave it to the school, because the parents have got 
to be involved, the church has got to be involved. When you say 
prevention, what are you talking about? After-school programs? 
It is just a community problem. And how do we address that 
community problem?
    To know the name of all these drugs, all I want my kid to 
do is not use it. So what do we do? What is the one thing? You 
say if you had known all this about drugs. I know that eating 
certain foods is not good for me, but I still eat them. So what 
is it that we can do to stop young people from getting involved 
in these drugs, because it seems as if it is cool, it is 
popular. But how do we get the message that it will also kill 
you? It will destroy your life.
    Mr. Webster. There is no one answer to that, either. I 
mean, each person is different. I am just saying for me, 
myself, if I would have had more information, I cannot say that 
I would have never tried the drugs, because a lot of kids are 
young and they think they are getting a sort of independence, 
they are 18 or what not, or they feel that they are grown up 
and they can make adult decisions. They may go out and try 
things.
    But I do not think I would have had the drug habit that I 
kept up if I had had more information. If I know I could 
deplete my seratonin in my brain, you know, I could be 
clinically depressed in years, I might not have done that much 
X. I cannot say that education will stop kids from doing drugs, 
but it will give them more information and let them know that, 
if you are going to mixing these chemicals in your body, there 
is no telling the outcome. And you could be that statistic and 
be the one who tries it one time and go down, or you can be the 
one who parties for years, and the next thing you know you 
graduate to a higher addiction because, you know, you cannot 
ever feel good.
    Ms. Brown. Where do you think that information should come 
from? The school?
    Mr. Webster. To me, that is just science class, that is 
biology. These kids need to know that. I mean, if you are going 
to teach them about biology, you might as well tell them about 
drugs, because that is what it is doing. It is all chemicals, 
and your body is all chemistry right then and there.
    Mr. Cantley. Ms. Brown, thank you. It is a remarkable 
question. I really appreciate the possibility of looking for 
solutions for it.
    To me, I think one of the things that is clear in my 
discussions with the kids is that when they use club drugs, 
particularly Ecstasy, they do not use it to, do drugs. They do 
not consider themselves as a drug addict, like a heroin or a 
cocaine user. It is something unique and special out here.
    We do know that teenagers are particularly sensitive to 
peer pressure, to peer cultures, to being like everyone else. 
And I think that may be some of the keys in working with 
teenagers. Now maybe not young kids, but once they get up into 
teenagers, if there is somehow or another we can get the 
message across to all of our teenagers that it is not cool to 
do these drugs, then we will not have a problem with it. Right 
now they have got the perception that it is cool to do drugs. 
And it is a social thing to do the club drugs. As long as that 
is there, we have got our work cut out for us, and we have just 
got to turn the tide through a mass of education kind of thing. 
And Congressman Mica, if somehow or another those spots can 
actually be developed, some of them, to begin to turn that tide 
a bit about talking to teenagers, very specifically, you are 
not cool when you do drugs.
    Ms. Alumbaugh. We do say that in the speech. If there is no 
demand for it, they will not make it. You know, so when it is 
offered, we hope that we are giving them a tool to help them to 
continue to say no. And if the demand is not there, it will not 
be made. But we do have to educate them on what this stuff is 
made of. You know, tell them that they put floor stripper and 
degreaser in this. And when you do, and you see that child's 
face, they had no idea that that was in this. And they are 
taking it.
    Again, that is education, but it is something that is going 
to stop them from doing this.
    Ms. Brown. Well, I want to thank you for what you are 
doing, but it is limited the number of schools that you have 
been able to get to.
    Ms. Alumbaugh. True.
    Ms. Brown. How do you think we should expand the kind of 
thing that you are doing?
    Ms. Alumbaugh. Well, we have teamed up with the Substance 
Abuse Council, because they are federally funded, are they not?
    Ms. Brown. Yes, some of them are.
    Ms. Alumbaugh. OK. If we could get involved with them, more 
of them, we could reach more people, and not just we, me, we 
the Substance Abuse Councils, and educate that way.
    Ms. Brown. One last question. Do you have a problem getting 
into the schools?
    Ms. Alumbaugh. No. No, we have been to 14 schools. We just 
started March 16th, and we have delivered Michael's message to 
4,800 students so far.
    Ms. Brown. What about you, Mr. Webster?
    Mr. Webster. We run into problems with our video, mainly. 
It is Overdose, and it shows official crime scene footage. And 
a lot of principals and other teachers feel it is just too 
graphic for junior high, even high school we have had problems. 
So getting our video in there is the bigger problem. But 
getting in there to talk to kids, we do not seem to have too 
much of a problem. Except for in Oviedo.
    Ms. Brown. Thank you, Mr. Chairman. I yield back my time.
    Mr. Mica. Thank you, Ms. Brown.
    One final question, the hearing that we held the day before 
yesterday in New Orleans focused on drug testing. The parochial 
Catholic schools had instituted a mandatory drug testing 
program for their students for 3 years, from Mr. Vitter's 
district, who is also on this committee. We heard some 
interesting testimony that, from testing positive and for a 
small but significant percentage of students 3 years ago to 
almost totally eliminating any positive tests today, that it 
has been a very successful handle. We had students testify, we 
heard about peer pressure, and they said, well, this mandatory 
testing takes all the pressure off. It was random, they never 
knew when they were going to get it, but they were all subject 
to it.
    The District Attorney testified, and they are now trying to 
institute that, will have this fall in some of the schools, 
public schools. There are questions when you get into the 
public school arena, some difficulties in that. Could you 
comment briefly on what you think mandatory drug testing for 
students, would it be beneficial, would it be helpful? Maybe we 
will take a quick run through the panel. Mr. Webster, what do 
you think?
    Mr. Webster. Yeah, I believe that would be very effective. 
I know I have been on probation before, and that is a good way 
of keeping you clean, when you know you are going to get 
tested.
    Mr. Mica. You find that to be very effective for people who 
have had some offense, drug offense. So you think it would be?
    Mr. Webster. Yeah, I think it would work well. I mean, 
there is going to be a lot of opposition trying to do that, to 
get into the public school arena. But we work with a group 
called Drug-Free America, and they offer free testing to 
parents, you know, they will send you the test and you can test 
your kid, and you can send it off to a lab and they will do it 
that way.
    I think a lot of it has to do with the parents, too, not so 
much responsibility put on the public schools, maybe a lot of 
it could be put on the parents themselves, educating them. And 
if they suspect something, maybe they should be the ones giving 
out those tests.
    Mr. Mica. I think they only had one student who refused to 
participate. Of course, in the parochial schools, they will not 
admit them.
    What is your recommendation?
    Ms. Alumbaugh. I agree with it.
    Mr. Mica. You would support it?
    Ms. Alumbaugh. Oh, yes. We just spoke to a school, a 
charter school, that did it. And the kids that we spoke to did 
not mind it. Did not mind it at all. They were tested before 
they were even allowed into the school, and then randomly 
through the year. And they basically appreciated it.
    Mr. Mica. Dr. Cantley, has the time come for a mandatory 
drug testing?
    Mr. Cantley. I am a proponent of testing, you know, 
generally. But also on the other end, I see the need to make 
sure that there is good clear guidelines and procedures to make 
sure that it is used correctly and effectively, and we do not 
go on witch hunts, and that we respond appropriately to 
positive tests. It is kind of like an employee assistance or a 
student assistance model. If you identify someone who is 
positive, that kicks them up into another phase, not out.
    Those kind of things, and good testing and a budget to 
accommodate it, because that is one of the biggest problems we 
have got in local communities, is paying for these. You know, 
giving positive responses to those some way. I think it would 
be a great thing for schools, for the community, for the 
treatment systems, for law enforcement, for the entire 
community, if it was done uniformly, consistently and humanely.
    Mr. Mica. Thank you. The New Orleans tests, incidentally, 
did have a component where, once they tested positive, of 
course there was a retest, and then they also had a treatment 
component and counseling. I think they gave them one chance. It 
was after the second one it was being kicked out.
    Well, I think you have helped us focus some attention on 
what is not only a local problem. I brought this magazine, it 
is dated June 5th which is not here yet. And it does show, and 
again having been in another venue, we are not the only victims 
of this problem. This is not just a central Florida problem 
now, it is a national problem, and we must address this. We are 
going to do a hearing in Dallas which has had similar heroin 
problems, and now we are facing some of these designer drug and 
club drug problems even in that setting. So it has spread 
across the Nation. But you have helped us put this into focus.
    First of all, Mr. Webster, we appreciate your taking your 
personal involvement and tragedy into something positive, and 
you are a survivor and we commend you for coming forward, being 
one who can testify about what it has done to your life.
    And I want to thank Ms. Alumbaugh. Unfortunately your son 
was a victim. You mentioned Tinker Cooper who has been, I 
noticed, in the audience during the hearing. I met her and I 
know of her tragic loss of her son to heroin, and she has tried 
to turn it into something positive like you have. And I commend 
you, her. Unfortunately there are dozens and dozens of other 
mothers and fathers out there who have been through the same 
horror that you have experienced. I cannot, as a parent, a 
father, even begin to imagine what you have been through. But 
we do, on behalf of the entire subcommittee and our committee, 
thank you for coming forward for your positive steps.
    And Dr. Cantley, your continued efforts in this community, 
central Florida, are certainly appreciated. And we look forward 
to working with you as you unfortunately are the recipient of 
so many of the victims of this growing culture and problem that 
we face. So I will thank each of you at this time, and dismiss 
this panel, there being no further questions before this panel.
    And call our third and final panel. Our third panel 
consists of two witnesses. One is Mr. John Varrone. Mr. Varrone 
is the acting Deputy Commissioner for Investigations of the 
U.S. Customs Service. The second witness in this third panel is 
Mr. William Fernandez. Mr. Fernandez is the executive director 
of the central Florida HIDTA, high-intensity drug traffic area. 
As I indicated to the previous witnesses, this is an 
investigations and oversight subcommittee of the U.S. House of 
Representatives. In that regard, we will swear you in in just a 
moment.
    And also, if you have lengthy statements, additional data 
or information you would like to have to be made part of the 
record, we will do so upon request, unanimous consent through 
the Chair.
    At this time, I am pleased to recognize first for 
statements, John Varrone. And again Mr. Varrone is the acting 
Deputy Commissioner for Investigations for the U.S. Customs. 
Before he testifies, and Mr. Fernandez, if you could please 
stand and be sworn.
    [Witnesses sworn.]
    Mr. Mica. The witnesses answered in the affirmative. The 
record will reflect that. And again, I will recognize Mr. 
Varrone with U.S. Customs for his testimony at this time. 
Welcome sir, and you are recognized.

  STATEMENTS OF JOHN VARRONE, ACTING DEPUTY COMMISSIONER FOR 
 INVESTIGATIONS, U.S. CUSTOMS SERVICE; AND WILLIAM FERNANDEZ, 
           EXECUTIVE DIRECTOR, CENTRAL FLORIDA HIDTA

    Mr. Varrone. Good morning, Mr. Chairman, and other 
distinguished members of the committee. I would like to thank 
the committee for this opportunity to testify here today 
regarding law enforcement activities of the Customs Service as 
they relate to the smuggling of Ecstasy and other designer 
drugs which are currently the choice of the club scene people 
here in Florida, as well as in other parts of the United 
States. I respectfully request that my long statement be 
submitted for the record, Mr. Chairman.
    Mr. Mica. Without objection, your entire statement will be 
made part of the record. Please proceed.
    Mr. Varrone. Thank you, sir.
    The U.S. Customs Service is the primary law enforcement 
agency at our Nation's ports. It is uniquely positioned to 
detect, intercept and investigate the importation of large 
quantities of dangerous drugs which are smuggled into the 
United States through our ports of entry. As America's front 
line, we often act as the early warning system to identify new 
drug trends or patterns of operation employed by violators who 
attempt to smuggle drugs into the United States.
    Since approximately 1997, U.S. Customs has experienced a 
dramatic increase in the importation, seizure and related 
investigations that focus on party drugs of all kinds, but 
specifically the synthetic drug commonly known as Ecstasy. 
Ecstasy or MDMA has been well-known among European youth and 
law enforcement where it has been produced and abused for the 
last decade. The abuse of this drug has spread throughout the 
United States at an unprecedented level, and can primarily be 
traced to two key factors. Profit and marketing.
    From a smuggler's standpoint, Ecstasy is one of the most 
lucrative drugs in the world. Tablets cost just pennies apiece 
to produce in Europe, and they can be sold in the streets of 
America for as much as $40 per tablet. For an initial 
investment of just $100,000, an Ecstasy smuggler can reap 
nearly $5 million in profit. The 6 million tablets that the 
U.S. Customs Service has seized thus far this fiscal year are 
valued at approximately $180 million. In addition to Ecstasy 
thus far in fiscal year 2000, Customs has also seized 2,203 
pounds of methamphetamine. This represents a 100 percent 
increase over 1999 numbers.
    The profit potential for Ecstasy is enhanced because of the 
insidious marketing techniques that smugglers and distributors 
employ to lure young adults into using this drug. In our 
status-conscious society, tablets are designed with brand names 
and logos, such as Mitsubishi, the Rolex symbol, Adidas emblem 
and the Nike trademark, to name a few. I would like pass an 
exhibit with some of those logos on it to you, Mr. Chairman.
    To distinguish one competitor's product from another, the 
logos are specifically selected to appeal to the young, 
affluent Ecstasy users. Their seemingly benign trademarks make 
it difficult for the youths to associate the actual danger that 
the use of this hard drug can cause. Our partners in local law 
enforcement have many examples of how Ecstasy distributors 
enhance their profit by doing such things as selling water for 
$5 a bottle to teens who are dehydrated by Ecstasy.
    During fiscal year 1999, U.S. Customs seized 3.5 million 
tablets of Ecstasy. More than four times the 750,000 tablets we 
seized in 1998. The surge continues in fiscal year 2000. As I 
previously stated, Customs has already seized 6 million tablets 
in the first 8 months of this year.
    The vast majority of Ecstasy is produced in the 
Netherlands, but production appears to be spreading throughout 
Europe. Smugglers export the drug directly from the 
Netherlands, primarily Amsterdam, or across the uncontrolled 
borders of neighboring European Union states to other 
international hubs such as Brussels, Frankfurt, Dusseldorf, 
Paris or London. By comparison, the Netherlands is to Ecstasy 
as the Golden Triangle is to heroin, and as the Andean region 
is to cocaine.
    Although most Ecstasy production occurs in Europe, we have 
to remain vigilant about Ecstasy labs everywhere. Just a few 
weeks ago, an Ecstasy laboratory was located and dismantled by 
Denver, CO law enforcement authorities. Law enforcement 
authorities are monitoring this new development closely. 
Domestic production could create yet another outlet for this 
illegal activity.
    In the Caribbean, the Dominican Republic has recently 
become a staging area for Ecstasy destined for the United 
States. We believe that the Dominican Republic is serving as a 
transit area for Ecstasy which originates in the Netherlands. 
Seizure and related investigative activity by the Customs 
Service has identified three primary gateway areas where 
Ecstasy is smuggled into the United States. These are, New 
York, California and Florida. There is no coincidence that 
these areas have emerged as focal points for Ecstasy-smuggling 
organizations. They are all transportation centers with strong 
European ties, and they all have large concentrations of young 
adults, who are the primary targeted consumers of Ecstasy. And 
they are all headquarters for the criminal organizations who 
smuggle Ecstasy.
    Florida's party triangle has also emerged as a prime venue 
for Ecstasy smuggling and trafficking. The tourist industry of 
Orlando, the Atlantic beaches, Miami and South Beach and the 
many universities and colleges, and the annual pilgrimage of 
spring breakers from other States offer an attractive venue for 
Ecstasy trafficking and distribution. Florida's warm climate 
also provides the opportunity for the year-round rave scenes.
    These groups use couriers from all walks of life to thwart 
Customs enforcement efforts. We have arrested teenagers, 
bankruptcy attorneys and members of the clergy who were 
attempting to evade Customs inspection while concealing 
Ecstasy. Couriers have concealed it in luggage, body cavities, 
and have even ingested tablets wrapped in condoms. This past 
March we arrested an individual at JFK airport who had 
swallowed 2,800 Ecstasy tablets. Since then, there have been 
five additional seizures in which Ecstasy has been concealed by 
ingestion.
    I have brought several exhibits with me today that 
illustrate the concealment methods used to smuggle Ecstasy into 
the United States. Several of these exhibits were seized right 
here at the airport in Orlando.
    Until recently, commercial air passengers presented the 
highest risk for Ecstasy smuggling. But a recent series of 
large seizures at the Memphis Express Mail Hub, and resulting 
controlled deliveries and arrests suggest that mail and express 
consignment packages may be a current method of choice for 
smuggling organizations. Controlled deliveries which are an 
important investigative tool allow special agents to identify 
the members of the Ecstasy smuggling organization by actually 
delivering the seized packages to the intended recipients.
    Express consignment packages have become popular with 
smugglers because they are reliable and they allow smugglers to 
track the movement of their parcels over the Internet. 
Smugglers very often call off the intended recipients if the 
package is thought to be delayed by Customs for examination, 
thwarting our attempts to conduct controlled deliveries and 
further insulating the organization from identification.
    Penetrating these worldwide criminal organizations is 
extremely difficult. They are highly compartmentalized and 
react instantly to law enforcement pressure. Their distribution 
networks are decentralized and therefore present greater 
enforcement challenges. Our seizures of Ecstasy and followup 
investigations have identified numerous criminal drug smuggling 
organizations that are involved in this highly profitable 
activity.
    Customs investigations have revealed that Ecstasy smuggling 
organizations have been primarily supplied and controlled by 
western-European-based drug smuggling organizations. Israeli 
organized crime elements appear to be in control of the Ecstasy 
trade, from production through the international smuggling 
phase. Couriers associated with Israeli organized crime have 
been arrested around the world, including France, Netherlands, 
Belgium, Germany, as well as locations here in the United 
States, such as Florida, New Jersey and New York. In some 
instances, Russian organized crime groups have been identified, 
working in collusion with Israeli organized crime groups.
    As I mentioned earlier, the introduction of the Dominican 
Republic as a transit point for Ecstasy has also meant the 
introduction of Dominican cocaine and heroin smuggling groups 
to the Ecstasy trade. These organizations are known for their 
violence and their involvement with Ecstasy smuggling could 
lead to associated violence not seen thus far in the illegal 
Ecstasy trade.
    There is intelligence that Mexican and Colombian 
traffickers are also getting involved and reports that South 
American cocaine has been exchanged for Ecstasy. Last month, 
investigators determined that a seizure of approximately 
300,000 Ecstacy tablets in Mexico was destined for the United 
States. The profits from Ecstasy are also attracting more 
traditional organized crime groups. A recent joint Federal, 
State and local investigation in Phoenix demonstrated that 
Sammy ``The Bull'' Gravano, former New York organized crime 
figure, could not resist the astounding profits from Ecstasy 
smuggling.
    In order to coordinate and focus our investigations, and 
particularly to enhance the flow of intelligence to our 
inspectors on the front line, Commissioner Kelly has directed 
that we create an Ecstasy task force at U.S. Customs Service 
headquarters. This task force is comprised of inspectors, 
agents and analysts who work full-time on Ecstasy 
investigations. They coordinate the numerous foreign leads 
developed through our investigations with the Drug Enforcement 
Administration.
    We also recently trained and graduated 13 canines in 
detection of Ecstasy. We have one full-time assigned right here 
in the Orlando area. Commissioner Kelly has also created a 
Website to get the awareness message out to as far reaching 
group as he possibly can.
    AS I noted earlier, our seizures and investigations have 
identified Florida as one of the gateway areas for Ecstasy that 
is smuggled into the United States. I would like to highlight 
some of the recent seizure and investigative activity that has 
occurred locally. I realize, Mr. Chairman, that I am out of 
time but I am near closing.
    Mr. Mica. Go right ahead.
    Mr. Varrone. If that is OK?
    Mr. Mica. Go right ahead.
    Mr. Varrone. In just the Orlando area alone, Customs has 
made several significant seizures of Ecstasy this fiscal year. 
On October 9, 1999 Customs inspectors at Orlando International 
Airport seized more than 14 pounds of Ecstasy tablets arriving 
from Amsterdam. On October 29th, we discovered 26 pounds of 
Ecstasy concealed in passenger baggage, also arriving from 
Amsterdam. As a result of the subsequent investigation of these 
two seizures, Customs was able to link one of the seizures to a 
major international narcotics smuggling ring operating out of 
Philadelphia, PA, as well as south Florida. This trafficking 
ring was responsible for moving approximately $1 million worth 
of Ecstasy into the United States on a weekly basis, and in 
turn, moving cocaine shipments back to Amsterdam.
    More recently, on March 29, 2000 Customs inspectors at 
Orlando International Airport prompted another investigation 
when they seized more than 10 pounds of Ecstasy from two 
individuals arriving from Belgium. A subsequent investigation 
by agents revealed that both couriers had been recruited by and 
linked to the same trafficking organization.
    On March 6th, Customs inspectors made 67 separate mail 
seizures of Ecstasy, totally 20,000 tablets in 1 day that had 
all originated in Belgium and were destined to addresses in 
Florida. The timing of these seizures so close to spring break 
has led us to believe that smugglers were building up their 
supplies in anticipation of a large influx of college students 
to the area.
    Customs has seized more than 219,000 Ecstasy tablets in 
Florida thus far this fiscal year, which equates to more than 
$6.5 million worth. In May, Customs agents in San Francisco 
arrested an individual for importing approximately 300 pounds 
of Ecstasy from Paris to San Francisco. This particular 
seizure, which totaled approximately 490,000 pills, is 
currently the largest single seizure of Ecstasy in the United 
States. The arrest and seizure was the result of a Customs-led 
undercover operation.
    Ecstasy has emerged as a very popular drug of abuse 
threatening our Nation's youth. Nontraditional organized crime 
primarily controlled the manufacturing of it in the Netherlands 
region, and its smuggling into cities across the United States, 
with New York, California and Florida being the main areas 
where it seems to enter. Customs is at the forefront of 
aggressively attacking Ecstasy smuggling organizations and 
their related profits.
    On behalf of Commissioner Kelly and the dedicated men and 
women of the U.S. Customs Service, I would like to thank this 
committee for the opportunity to testify here today and for 
your continued support for our important mission. This 
concludes my remarks, and I am prepared to answer any questions 
that you may have.
    Mr. Mica. Thank you. We will withhold questions until the 
end of testimony.
    William Fernandez is the executive director of the Central 
Florida High-Intensity Drug Traffic Area operations that we 
have. Welcome sir, and you are recognized.
    [The prepared statement of Mr. Varrone follows:]

    [GRAPHIC] [TIFF OMITTED] T1692.042
    
    [GRAPHIC] [TIFF OMITTED] T1692.043
    
    [GRAPHIC] [TIFF OMITTED] T1692.044
    
    [GRAPHIC] [TIFF OMITTED] T1692.045
    
    [GRAPHIC] [TIFF OMITTED] T1692.046
    
    [GRAPHIC] [TIFF OMITTED] T1692.047
    
    [GRAPHIC] [TIFF OMITTED] T1692.048
    
    [GRAPHIC] [TIFF OMITTED] T1692.049
    
    [GRAPHIC] [TIFF OMITTED] T1692.050
    
    [GRAPHIC] [TIFF OMITTED] T1692.051
    
    [GRAPHIC] [TIFF OMITTED] T1692.052
    
    Mr. Fernandez. Thank you, Mr. Chairman. I would also ask 
that my comments be included in the record.
    Mr. Mica. Without objection, your entire statement will be 
made part of the record. Please proceed.
    Mr. Fernandez. The central Florida High-Intensity Drug 
Trafficking area [HIDTA], encompasses seven counties. It ranges 
from Pinellas County to our southwest along the I-4 corridor to 
Volusia County on the East Coast. It encompasses 7,000 square 
miles, a year-round population of almost 4 million, and that 
includes 280 miles of coastline.
    The central Florida HIDTA supports all of the national drug 
control strategy goals, but has determined to more specifically 
strive to increase the safety of central Florida's citizens by 
substantially reducing drug-related crime and violence, and 
breaking foreign and domestic sources of supply. The central 
Florida HIDTA believes that cooperation between all levels of 
law enforcement and the building of long-term coalitions are 
essential in attaining these goals.
    In August 1998, the central Florida HIDTA received $1 
million in funding due largely to an alarming number of heroin 
overdose deaths in central Florida. This funding was utilized 
to initiate seven task forces specifically aimed at heroin, 
methamphetamine, cocaine, money laundering and violent 
fugitives. In the latter part of 1999, the central Florida 
HIDTA received an additional $1.5 million. This was utilized to 
fund a total of 11 task forces and a newly operational 
investigative support center.
    The support center will enhance the ability of Federal, 
State and local law enforcement to identify, target and 
prosecute criminal organizations through the sharing of 
intelligence and the availability of up-to-date hardware and 
software, investigative hardware and software. The center will 
also serve as a deconfliction tool for all of law enforcement 
in our area.
    As of this date, the central Florida HIDTA funds a portion 
of the operating expenses and overtime for 120 police officers 
in our seven-county area. They work with 45 Federal agents. To 
date, they are responsible for 3,355 arrests, including 210 for 
violent offenses. They have disrupted or dismantled 208 
organizations, seized 72 pounds of heroin, 445 pounds of 
cocaine, 217 pounds of methamphetamine, including 9 labs, 5 
pounds of Ecstasy and 21,000 pounds of marijuana. They have 
seized in excess of 350 weapons and over $15 million in U.S. 
currency. Our support center has responded to over 350 
inquiries from over 40 law enforcement agencies in its 4 months 
of operation.
    There were 70 heroin deaths in 1998 in our central Florida 
area, 80 in 1999, and it looks like we are going to see an 
increase again this year. The purity of heroin remains fairly 
constant, there has been a slight drop, and the price is down, 
indicating supply is leading demand. This is not good news. We 
have also seen an alarming increase in the availability of 
methamphetamine, especially in Polk County and, as you have 
heard today, Ecstasy is becoming a very large problem.
    I would like to thank Congressman Mica for his continued 
support and interest. In an effort to weave this into today's 
subject matter, of our task forces, one is a methamphetamine-
specific task force, four of them are poly drug task forces, 
and by poly drug, I mean, they go wherever their informants and 
their intelligence lead, which would include the designer drugs 
and club drugs. Our support center on a daily or weekly basis 
receives reports from Interpol on arrests and other instances 
that have happened throughout the world. We take that 
information, analyze it, digest it, and have been contacting 
the appropriate law enforcement agencies throughout the State. 
We look primarily for Florida citizens that we think will have 
an impact on our area.
    Thank you very much.
    [The prepared statement of Mr. Fernandez follow:]

    [GRAPHIC] [TIFF OMITTED] T1692.053
    
    [GRAPHIC] [TIFF OMITTED] T1692.054
    
    [GRAPHIC] [TIFF OMITTED] T1692.055
    
    [GRAPHIC] [TIFF OMITTED] T1692.056
    
    Mr. Mica. Thank you. I am interested, first of all, with 
asking Customs, it appears that the Netherlands is one of the 
major producers of Ecstasy and some of these designer drugs. I 
had met with the Minister of Justice last year, and they 
pledged cooperation, but it appears that we are seeing more and 
more drugs coming in. They also promised to bring before their 
parliament toughening of the laws, since they liberalized the 
laws it had become sort of a mecca for production and 
distribution.
    Do you know if the Commissioner has raised this question 
with officials in the Hague or the Netherlands?
    Mr. Varrone. Mr. Chairman, I am not sure whether the 
Commissioner has directly raised that question.
    Mr. Mica. I think we need to seek their cooperation. It 
appears to be getting out of hand, the seizures that you talked 
about, too, coming into Orlando Airport were from Amsterdam, 
several of the larger seizures. Unfortunately that now the 
production seems to be spreading, and through that trademark, 
these trademark tablets, I had never seen this before, but this 
obviously is not something home developed. This is a pretty 
professional operation, is that correct?
    Mr. Varrone. Yes, sir. Going back about 18 months, Mr. 
Chairman, and we have gone over and met with the authorities in 
the Netherlands, and their authorities are aggressively 
pursuing it, and we are coordinating all international leads 
that we develop domestically. Beyond that, in the Netherlands, 
I do not know what else they are doing, but they have pledged 
full cooperation, and they have demonstrated that cooperation.
    Mr. Mica. Are the laws adequate to deal with some of these 
new drugs we are seeing, and also we have heard over and over, 
the Internet is sort of an access information point. Do we need 
to go back and look at both the penalties for trafficking, and 
also providing some of this information on illegal substances? 
Maybe you could both respond.
    Mr. Varrone. Yes, I believe so. I believe the penalties 
need to be enhanced. Clearly by the sentencing that we have 
seen and some of the violators that we have arrested and taken 
to Federal court, on the State side I am not exactly sure, as 
each State has imposed their own penalties.
    Mr. Mica. But federally, you would advocate strong or 
tougher penalties for trafficking?
    Mr. Varrone. Yes, sir.
    Mr. Mica. And what about the use of the Internet as the 
vehicle for distribution, sale or information on illegal 
narcotics?
    Mr. Varrone. Clearly, I think that if new legislation is 
proposed, that they should include elements that involved 
transmission on the Internet or procurement on the Internet of 
illegal substances. Yes, sir.
    Mr. Mica. Did you want to respond?
    Mr. Fernandez. Yes, sir, please. In reference to the 
sentencing, one of the problems we face here in central 
Florida, I am advised by some of the task force commanders, 
especially for heroin, on the State side, you can arrest them. 
The sentencing is excellent but you cannot keep them in jail 
because they meet bond. On the Federal side, you can bond them, 
but the sentencing fails us.
    For 400 grams of heroin, if I am not mistaken, I think you 
can get 25 years in State court. You can get off for, I think, 
60 months in the Federal system.
    Mr. Mica. So we need to look at those penalties at the 
Federal level; of course, we do not have control over State 
legislation.
    The other question I raise today is, our efforts, I know 
they are initial efforts with the HIDTA, the High-Intensity 
Drug Traffic operation, some of them were initial in setting 
this up. Do we have adequate resources to deal with the 
magnitude of the problem we are seeing now?
    Mr. Fernandez. No, sir, I do not think we do. I believe our 
investigative support center, I think we need one on the west 
side of the State to interface with ours here in--it happens to 
be in Seminole County. Mr. McDonough referred earlier to an 
interconnectivity. That is in the process of national HIDTA. We 
are going to try and connect the support centers by region, the 
southeast region, the northeast region. But no, we do not have 
adequate funding, in answer to your question. We could use 
quite a bit more.
    Mr. Mica. Mr. Varrone, you brought some things with you to 
show distribution, but you did not describe them. Can you 
describe them for the subcommittee? What do you have?
    Mr. Varrone. These are Ecstasy tablets from a variety of 
seizures that we have had here, that we thought we would bring 
for the committee to see.
    Mr. Mica. Where were they seized?
    Mr. Varrone. These were seized at Orlando International 
Airport.
    Mr. Mica. How did they come in? Commercial airline?
    Mr. Varrone. These were passenger seizures, and one of them 
was on the seizure in the photograph over on the left there, 
inside the box. We have had them in a variety of ways. The 
engines in this photograph came in C cargo through 
Jacksonville, if you can see that one, and the rest of these 
photographs that you see are airport-related seizures.
    Mr. Mica. These all also have the stamps on them. Are we 
able to detect these through some of the electronic or x-ray 
equipment? Or can we also detect them with dogs sniffing?
    Mr. Varrone. Yes, we have the 13 canines, and we have one 
right here in the Orlando area. The x-ray machine will identify 
a substance, just a substance in a false compartment or a 
displacement. As in the suitcase here, you will see a false 
bottom on the suitcase, if you went and x-rayed that through 
our portable x-ray machine. We also have one of those here in 
Orlando.
    Mr. Mica. Go right ahead, Mr. Towns.
    Mr. Towns. Canines cannot detect LSD.
    Mr. Varrone. We have not traditionally trained our canines 
in the variety of different types of pill detection. I do not 
know if they can specifically detect LSD. I do not think so.
    Mr. Mica. Do you have what you consider adequate personnel 
and resources, technical equipment to deal with this problem we 
are seeing here and around the State and country?
    Mr. Varrone. We have a bill, I believe you are aware of it, 
Mr. Congressman, the H.R. 1833, which is a large resource 
request for the Customs Service to address all of our issues, 
our resource issues, our staffing issues for increases.
    Mr. Mica. So basically you want to tell the committee that 
you are requesting additional technical personnel, other 
resources to deal with this problem?
    Mr. Varrone. Yes, sir.
    Mr. Mica. Mr. Towns, do you have any questions?
    Mr. Towns. Yes, thank you very much, Mr. Chairman.
    I guess raising along the same line, Mr. Chairman, I am 
concerned that the Federal mandatory minimum sentencing law, 
which are based on the weight of the drug may not appropriately 
look at designer drugs. And I would like for us to look into 
that issue. Let me go to my question.
    Can any of the witnesses tell me the maximum sentence that 
someone receives for trafficking Ecstasy?
    Mr. Fernandez. I cannot.
    Mr. Varrone. The average sentence is 5 to 6 years. I do not 
know what the maximum sentence has been that has been imposed.
    Mr. Towns. That is the whole problem, in terms of this 
whole weight issue. You know, I see that as a problem, I guess 
you see it as a problem too?
    Mr. Varrone. Yes, sir.
    Mr. Towns. The other thing is that, from a coordination 
standpoint, you know, are you able to really coordinate the 
activities between Customs and DEA and the local sheriff and 
local police department? Do you feel that you have the right 
kind of cooperation and coordination at every level?
    Mr. Varrone. I truly believe that, Mr. Towns, the 
cooperation between Federal, State and local is, in my opinion, 
at a level that I never would have thought a decade ago we 
could have reached. But through mechanisms like the HIDTA, 
through joint investigations, through task force at our major 
ports of entry, like right here in Orlando, I think cooperation 
is outstanding. And there is no case where we will not ask each 
other for help, or we will not share information for a common 
law enforcement purpose.
    Mr. Fernandez. If I could, I would agree. It has been a 
long time coming, I think it could probably be always improved, 
but it is better than I have ever seen in my 30 years in 
narcotic enforcement.
    Mr. Towns. I am happy to hear that because, in the old 
days, you were locking each other up. [Laughter.]
    Mr. Fernandez. An understatement.
    Mr. Towns. But let me ask, just recently this subcommittee 
had a hearing about the use of U.S. mail and private couriers 
to smuggle drugs into the United States. Is the use of mail a 
problem now?
    Mr. Varrone. Yes. Clearly, the exploitation, if you will, 
of the mail to smuggle drugs into the country continues to 
present a problem to us. There is a lot of effort, there are a 
lot of seizure activity. We work closely with the Postal 
authorities, and we try to make deliveries to those violators 
and arrest them.
    But it allows anonymity in the process, and people building 
in other people who may be unwittings. So it is a real 
challenge for us. And the volume of activity, both in the U.S. 
mail as well as in the express consignment mail presents a 
great challenge for us.
    Mr. Towns. All right. Thank you very much.
    Mr. Chairman, what I am getting ready to say now is for 
another hearing and another day. But I must admit that I am a 
little concerned that a lot of the countries that the drugs are 
coming from are countries that we have a treaty with. And that 
bothers me. That is a subject for another day.
    But anyway, I yield back.
    Mr. Mica. Thank you, Mr. Towns. Ms. Brown.
    Ms. Brown. Yes. First of all, Mr. Chairman, what kind of 
street value is this? You say this came in from Jacksonville?
    Mr. Varrone. I would have to see the seizure and match it 
up with the paperwork on it to give you an approximate value of 
just that package.
    Ms. Brown. Was this in one shipment?
    Mr. Fernandez. If I may?
    Ms. Brown. Yes, sir.
    Mr. Fernandez. I would imagine if it is in that bag with 
one number, it was seized at one time. I am sure he will----
    Ms. Brown. While he is looking at that, you head up the 
HIDTA?
    Mr. Fernandez. Yes, ma'am.
    Ms. Brown. We in Jacksonville have been trying to get a 
HIDTA, the sheriff applied and the law enforcement have joined 
together, and I think they even met with the drug czar.
    What is your opinion about the need for another HIDTA in 
the Jacksonville area, considering that we have the ships come 
in through Jackson harbor?
    Mr. Fernandez. I would certainly support it. I was born in 
this State, I was with DEA for 14 years in Jacksonville, 
Orlando and Miami. I believe this entire State should be a 
HIDTA area, I will be very honest with you.
    Ms. Brown. The whole State?
    Mr. Mica. Would the lady yield?
    Ms. Brown. Yes, Mr. Chairman.
    Mr. Mica. This is a question that, of course, we will have 
to consider in the next few weeks and months with the drug 
czar. But another one of the proposals has been to expand the 
central Florida HIDTA on up to Jacksonville. Currently the 
Federal judicial circuit runs, I believe, across form 
Jacksonville all the way to Tampa.
    Mr. Fernandez. That is correct.
    Mr. Mica. Would you have objection to expansion of the 
current HIDTA? I know you will want additional resources--
rather than create a third HIDTA? Do you think that makes 
sense?
    Mr. Fernandez. I think there are some good aspects and some 
probably negative aspects.
    Mr. Mica. Could you just briefly----
    Mr. Fernandez. I probably do not have the--staffed 
properly, it would make good sense. You know, someone would 
certainly have to be there to oversee the day-to-day things as 
I do here. Those people and those coalitions need to be tended 
to by someone that is familiar with those sheriffs, chiefs, and 
the players. But either way, if the funding were available, I 
would very much like to see Brevard County brought into the 
HIDTA. That is a very major port. There are two ports there. 
Very major port in Jacksonville.
    Mr. Mica. Thank you, Ms. Brown.
    Mr. Varrone. Yes, I have the answer for you. This package 
is approximately 30 pounds, and its street value would be about 
$2 million.
    Ms. Brown. $2 million.
    Mr. Mica. A lot of profit in that.
    Ms. Brown. Mr. Chairman, just a technical, several people 
in the hall mentioned that they would like, since they will not 
have opportunity to testify, I suggested that you have a 
procedure they can submit?
    Mr. Mica. Right. And Mr. Towns has requested that the 
record be open for a period of 2 weeks, and anyone who would 
like to submit testimony--again, we had many, many requests for 
testimony. Because again, we are already running out of time, 
given the schedule of members, but because of the limitations 
we have, we have had to have representative presentations here.
    But everyone is welcome, and if they will address their 
request to have testimony made part of the record, that will be 
done so. And just to contact us, or Ms. Brown or Mr. Towns will 
be glad to work with them to make certain that their testimony 
is a part of the permanent record of this hearing.
    Thank you, Ms. Brown. Did you have any other questions?
    Ms. Brown. No. I think that this has been very, very 
educational for all of us, and I am hoping that we will move 
forward on two or three fronts.
    One, I think we seriously must look at the Internet. I do 
not know the answer to that, but I think we need a hearing, as 
it relates to the availability of drugs and other kinds of 
problems that we are experiencing. With some of the positive, 
there is some negative to protecting our young people.
    And in addition, we all agree that education and prevention 
is important, but we also probably need to move forward with 
some additional law enforcement in the area of Florida, as far 
as HIDTA is concerned, and perhaps Jacksonville, in addition to 
other areas, we look toward expanding the program.
    Mr. Mica. Thank you.
    Well, we have had an opportunity to just really touch the 
surface of some of the problems we are seeing, both in our 
community and across the Nation, and particular focus today on 
Ecstasy. As to our own local community, I grow even more 
concerned, the numbers you cited, what was it, 78----
    Mr. Fernandez. Pounds of heroin?
    Mr. Mica [continuing]. Heroin deaths a year ago, and then--
or 2 years ago, and we are up to 80 this past year.
    Mr. Fernandez. That is correct.
    Mr. Mica. Plus in previous meetings I have had with HIDTA 
representatives and law enforcement representatives, that only 
shows part of the picture, because the overdoses and the 
emergency room admissions for heroin are up again dramatically 
in this area. The only thing that is saving more lives is the 
availability to medical treatment and a little bit more 
sophisticated, quicker approach in saving people. But even so, 
we are seeing an increase in that area.
    Now the problem of club drugs, in particular Ecstasy, which 
is another plague in this community and across the country, we 
have taken several hits of dramatic proportions. We are going 
to have to redouble our efforts. The HIDTA is new, and we may 
have to refocus some of our attention in the law enforcement 
area.
    This hearing has also demonstrated the need for education 
and prevention methods, and they really need to be developed on 
an unprecedented scale. We are never going to get a handle on 
this if we do not. And then also treatment, how important that 
is, effective treatment. So it is going to take a multi-faceted 
approach, the international problems that we face, seeing the 
flood of these drugs coming in across our borders also needs to 
be addressed.
    But I want to thank the two witnesses for being with us. I 
look forward to working with Customs, the Commissioner has done 
an outstanding job, Mr. Kelly and others there, with sometimes 
strained resources. To our HIDTA representative, also, thank 
you and the local and State officials for your efforts in 
trying to organize an effective and coordinated law enforcement 
effort.
    And I particularly want to again thank my colleagues, Ms. 
Brown who has joined us today taking time out of her schedule, 
and concerned about this community, and the larger problem we 
face across the Nation. And then also salute my former 
chairman, who I worked with and who has joined our panel, the 
panel I have the honor to chair, and thank him for his 
cooperative efforts on this hearing and many other issues we 
have worked together on in Congress.
    Did you have any other further business, Ms. Brown, Mr. 
Towns?
    Mr. Towns. No. Thank you, Mr. Chairman, I look forward to 
working with you.
    Mr. Mica. Thank you. We will excuse the panelists at this 
time. We may have additional questions we would like to submit 
for the record, some additional data we would like to make part 
of that, and we will try to do that within the period left 
open.
    There being no further business to come before the 
Subcommittee on Criminal Justice, Drug Policy, and Human 
Resources at this time, this meeting is adjourned. Thank you.
    [Whereupon, at 12:44 p.m., the subcommittee was adjourned.]
    [Note.--The publication entitled, ``Drug Identification, 
Designer and Club Drugs Quick Reference Guide,'' by Detective 
Scott W. Perkins may be found in subcommittee files.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T1692.057

[GRAPHIC] [TIFF OMITTED] T1692.058

[GRAPHIC] [TIFF OMITTED] T1692.059

[GRAPHIC] [TIFF OMITTED] T1692.060

[GRAPHIC] [TIFF OMITTED] T1692.061

[GRAPHIC] [TIFF OMITTED] T1692.062

[GRAPHIC] [TIFF OMITTED] T1692.063

[GRAPHIC] [TIFF OMITTED] T1692.064

[GRAPHIC] [TIFF OMITTED] T1692.065

[GRAPHIC] [TIFF OMITTED] T1692.066

[GRAPHIC] [TIFF OMITTED] T1692.067

[GRAPHIC] [TIFF OMITTED] T1692.068

[GRAPHIC] [TIFF OMITTED] T1692.069

[GRAPHIC] [TIFF OMITTED] T1692.070

[GRAPHIC] [TIFF OMITTED] T1692.071

[GRAPHIC] [TIFF OMITTED] T1692.072

[GRAPHIC] [TIFF OMITTED] T1692.073

[GRAPHIC] [TIFF OMITTED] T1692.074

[GRAPHIC] [TIFF OMITTED] T1692.075


</pre></body></html>
